United States Department of Agriculture
Office of Inspector General
No. 66




Office of Inspector General
Semiannual Report to Congress
April 1, 2011 — September 30, 2011




                                          Second Half
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—
April 2011-September 2011
SUMMARY OF AUDIT ACTIVITIES	
Reports Issued	
      Number of Reports	                                                                           24
      Number of Recommendations	                                                                  154
Management Decisions Reached	
      Number of Reports	                                                                           19
      Number of Recommendations	                                                                  171
Total Dollar Impact of Reports with Management Decisions (Millions)	                         $4,178.4
      Questioned/Unsupported Costs	                                                          $4,169.8
      Funds To Be Put To Better Use	                                                             $8.6
SUMMARY OF INVESTIGATIVE ACTIVITIES	
Reports Issued	                   177
Impact of Investigations	
      Indictments	363
      Convictions	200
      Arrests	831
Total Dollar Impact (Millions)	 $65.8
Administrative Sanctions	         131

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2011)
1)	 Interagency Communications, Coordination, and Program Integration Need Improvement
	   Related material can be found on pages 7 and 10-12.
2)	 Implementation of Strong, Integrated, Internal Control Systems Still Needed
	   Related material can be found on pages 7, 26, and 35.
3)	 Continuing Improvements Needed in Information Technology Security
	   Related material can be found on page 25.
4)	 Material Control Weaknesses in Civil Rights Control Should Be Mitigated
	   No work was reported during this period.
5)	 USDA Needs To Develop a Proactive, Integrated Strategy To Increase Agricultural Commerce and Trade
	   Related material can be found on page 4.
6)	 Better Forest Service Management and Community Action Needed To Improve Forest Health and Reduce Firefighting Costs
	   Related material can be found on page 34-35.
7)	 Improved Controls Needed for Food Safety Inspection Systems
	   Related material can be found on page 7-8.
8)	 Implementation of the American Recovery and Reinvestment Act of 2009
	   Related material can be found on pages 19-21, 29-30, and 35-37.
9)	 Strengthen Efforts To Indentify, Report, and Reduce Improper Payments
	   Related material can be found on page 26.
Message from the Inspector General
This Semiannual Report to Congress (SARC) covers the 6-month period ending September 30, 2011, and summarizes the most
significant accomplishments of the U.S. Department of Agriculture’s (USDA) Office of Inspector General (OIG). During the last
half of the year, our office has continued to work extensively with the Department, Congress, and other Federal agencies to ensure
the integrity and efficiency of USDA programs, safeguard the taxpayers’ investment in these programs, and investigate those who
allegedly abuse USDA programs.
A significant portion of our resources during this period have been directed to overseeing $28 billion in American Recovery and
Reinvestment Act of 2009 (Recovery Act) funds provided for USDA programs. We have 35 Recovery Act audit projects in progress,
and OIG’s investigations program provided fraud awareness training and materials to USDA employees, contractors, and grantees.
Our accomplishments during this period have been significant. We conducted successful investigations and audits that led to 831
arrests, 200 convictions, $65.8 million in recoveries and restitutions, 150 program improvement recommendations, and $4.2 billion
in financial recommendations. Our activities, including our Recovery Act work, are described according to our strategic goals, as
outlined in the OIG Strategic Plan for FYs 2007-2012:
σσ    Safety, Security, and Public Health—The Agricultural Marketing Service (AMS) recently implemented new country of
      origin labeling (COOL) regulations so that consumers can make informed purchasing decisions about the food they put
      on the table, but OIG found that AMS was falling behind in responding to retailers who have not complied with COOL.
      During this period, OIG also acted quickly to investigate and bring to justice a USDA official accused of sexually assaulting
      his subordinate. This official was sentenced to 5 months in prison.
σσ    Integrity of Benefits—OIG continues to focus much of its investigative resources on fighting fraud in the Food and
      Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP). Since April, our work has resulted in 100
      convictions and $20.7 million in monetary results. OIG has also conducted important audit work to determine if borrowers
      who obtained single family housing loan guarantees were eligible for their loans. Based on our review of 100 loans, we
      estimated that 30,310 loans—with a projected total value of $4.16 billion—were issued to ineligible borrowers.
σσ    Management Improvement Initiatives—OIG participated in an investigation prompted by a whistleblower’s allegation that
      drivers working for a well-known package delivery service were abusing delivery delay codes in order to excuse their lateness
      in delivering packages to Government offices. As a result of a joint investigation with the U.S. Department of Justice and
      the General Services Administration Office of Inspector General, the package delivery service agreed to an $8 million civil
      settlement addressing the false claims regarding delayed packages. Additionally, an audit found that USDA needs to improve
      how it reports its high-dollar overpayments in high-risk programs, as in 2010 the Department’s high-dollar overpayment
      reports were late, inaccurate, and incomplete.
σσ    Stewardship Over Natural Resources—The Forest Service (FS) is responsible for processing thousands of applications to use
      Federal forest lands for a wide variety of special purposes, including setting up communication relays, bottling spring water,
      and outfitting and guiding backcountry and river trips. An OIG audit found, however, that FS has fallen behind in this work,
      building a substantial backlog of expired authorizations, uninspected special use land authorizations, and communication
      sites without current communication site management plans. Another audit found that grant recipients who did not have
      financial accounting processes in place to properly allocate and support the salary costs they charged to their Recovery Act and
      non-Recovery Act-funded grants may have received FS grants with a projected total value of $28 million.
As always, USDA OIG’s team of dedicated and professional staff is committed to helping USDA improve the services it provides
American taxpayers—the accomplishments reported here are the direct results of their efforts. We appreciate the interest and
support shown by Secretary Thomas J. Vilsack and his management team and look forward to working together to reduce fraud,
waste, and abuse; ensure that USDA programs are efficient and cost-effective; and help USDA respond to the demands of a
challenging budget environment.




Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Integrity of Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Management Improved Initiatives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Stewardship Over Natural Resources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                                                                  Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                  In the second half of FY 2011, we devoted 12 percent of our
                                                                       total direct resources to Goal 1, with 100 percent of these
Strengthen USDA’s ability to implement safety and                      resources assigned to critical-risk and high-impact work. A
security measures to protect the public health as                      total of 100 percent of our audit recommendations under
well as agricultural and Departmental resources                        Goal 1 resulted in management decision within 1 year, and
                                                                       63 percent of our investigative cases resulted in criminal, civil,
To help USDA and the American people meet critical
                                                                       or administrative action. OIG issued 3 audit reports and 1
challenges in safety, security, and public health, OIG provides
                                                                       Recovery Act fast report under Goal 1 during this reporting
independent audits and investigations in these areas. Our work
                                                                       period. OIG’s investigations under Goal 1 yielded 58
addresses such issues as the ongoing challenges of agricultural
                                                                       indictments, 44 convictions, and $608,683 in monetary results
inspection activities, safety of the food supply, and homeland
                                                                       during this reporting period.
security.



 Management Challenges Addressed UNDER GOAL 1
 σσ     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goal 2)
 σσ     Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goals 2, 3, and 4)
 σσ     Continuing Improvements Needed in Information Technology Security (also under Goal 3)
 σσ     USDA Needs To Develop a Proactive, Integrated Strategy To Increase Agricultural Commerce and Trade
 σσ     Improved Controls Needed for Food Safety Inspection Systems



EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                               reporting and monitoring research incidents, (2) a formal
FOR GOAL 1                                                             research approval and review process, (3) a process for tracking
                                                                       recommendations from their internal inspections, and (4)
USDA Needs To Strengthen its Regulations and                           a comprehensive security plan. APHIS agreed with our
Controls Over Genetically Engineered (GE) Animals                      recommendations to develop a regulatory framework clearly
and Insects                                                            defining its scope of coverage and regulatory requirements, and
The Animal and Plant Health Inspection Service (APHIS)                 the USDA agencies responsible for GE animal research also
has published regulations for GE plants, but it has not issued         agreed to strengthen their controls at their laboratories. (Audit
regulations pertaining specifically to the import, interstate          Report 50601-0016-Te, Controls over Genetically Engineered
movement, or field release of GE animals and insects. APHIS            Animal and Insect Research)
officials explained that they have been responding, case by            AMS Needs To Strengthen Retailer Compliance with
case, when researchers request regulatory information, and             Country of Origin Labeling (COOL) Requirements
there have been many more requests related to GE plants
than GE animals and insects. OIG acknowledged that                     In March 2009, Federal regulations went into effect requiring
APHIS’ approach has been reasonable for regulating the                 food retailers to provide consumers with country of origin
few instances of experimentation relating to GE animals                labels on certain food products so that consumers can make
and insects that have taken place to date, but APHIS needs             informed purchasing decisions. OIG evaluated how AMS
to implement its regulations before such experimentation               implemented COOL regulations and found that the agency
becomes more common. We also found that USDA agency-                   has made significant progress, but that it needs to strengthen
funded laboratories performing research involving GE animals           its process for selecting and reviewing retailers for compliance
and insects need to improve how they operate their facilities          and improve the timeliness with which it handles any
by developing and implementing (1) a formal process for                noncompliances disclosed by its reviews. AMS was falling




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half            1
                                                                    Goal 1




behind in responding to retailers who have not complied with             firms for review. (Audit Report 24601-0008-At, Food Safety
the new regulations. Of the 5,528 calendar year 2010 reviews             and Inspection Service In-Commerce Surveillance Program)
identifying retailers who did not label their products correctly,
                                                                         Courts Impose Stricter Oversight Conditions for Meat
AMS did not promptly provide formal written notice to 1,719
                                                                         Company Responsible for Japan’s Rejection of U.S.
retailers of their failure to comply with COOL requirements.
                                                                         Beef Imports
Problems of this sort occurred because AMS was temporarily
                                                                         From January to July 2006, Japan halted U.S. beef imports—
understaffed and the agency was not always identifying all
                                                                         worth more than $1 billion annually—due to the discovery
retailers who must adhere to COOL. AMS selects stores for
                                                                         of vertebrae in a shipment of beef product originating from a
review based on the type of store (supermarket and wholesale
                                                                         U.S. company in Brooklyn, New York. OIG and FSIS jointly
club stores) and the amount of sales (greater than $2 million
                                                                         conducted a criminal investigation into this matter and, in
annually), but at least 40 retailers in 15 States were not
                                                                         response to our work, the Government filed a civil complaint
included in the selection process even though they should have
                                                                         in U.S. District Court, Eastern District of New York, charging
been. Unless it corrects these types of problems, AMS will
                                                                         the Brooklyn company with violations of the Federal Meat
have reduced assurance that all retailers are properly labeling
                                                                         Inspection Act. In April 2011, the U.S. District Court
the country of origin for all covered commodities. AMS agreed
                                                                         approved legal measures providing for permanent injunctive
with our conclusions that it needed to strengthen its oversight
                                                                         relief and escalating monetary penalties to prevent this
of the program, including improving its retailer review process,
                                                                         company from violating the Act or AMS Export Verification
enhancing its compliance procedures, and improving how it
                                                                         Program rules in the future. Additionally, in the event of
communicates with retailers. (Audit Report 01601-0004-Hy,
                                                                         future violations, the consent decree authorizes USDA to halt
Implementation of Country of Origin Labeling)
                                                                         any future exports, perform onsite inspections, and require
Food Safety and Inspection Service (FSIS) Needs                          onsite verification of the sufficiency of corrective actions by this
To Better Identify High-Risk Commercial Food                             company.
Companies for Surveillance                                               California Company Falsifies Certificates To Allow
In order to assure the American public that the Nation’s                 Cotton Exports to Bangladesh
commercial supplies of meat, poultry, and egg products are safe,
                                                                         In March 2006, APHIS Plant Protection and Quarantine
wholesome, and correctly labeled and packaged, FSIS assesses
                                                                         officials informed OIG that a California company had
approximately 145,000 businesses engaged in the interstate
                                                                         submitted 11 forms that had been altered in order to obtain
transport, storage, distribution, and sale of these foods. Based
                                                                         export certificates for cotton bound for Bangladesh. Our
on our review of this in-commerce surveillance program, we
                                                                         investigation revealed that the company’s employees had
found that FSIS conducts surveillance reviews and pursues
                                                                         falsified the forms to conceal the fact that the time period
followup appropriately, but that the agency can improve its
                                                                         between the actual inspection date and the departure date
methodology for selecting firms for surveillance. Although
                                                                         for these shipments of cotton exceeded 14 days, the export
FSIS investigators are required to prioritize surveillance based
                                                                         inspection time limit. The company employees we interviewed
on risk, they have not established selection criteria that makes
                                                                         admitted falsifying the forms, and stated that manipulating
risk a primary consideration. OIG concluded, based on its
                                                                         these dates was a common industry practice. In April 2011,
findings, that surveillance reviews are being decided primarily
                                                                         plea negotiations between the prosecuting Assistant United
based on proximity to other sites and for the investigator’s
                                                                         States Attorney and the company’s defense attorney resulted in
convenience. In addition, we found that the In-Commerce
                                                                         a pre-trial diversion agreement, which imposed a $7,000 fine
System—a web-based application FSIS uses to store program
                                                                         and implemented additional oversight conditions to ensure
data—had a significant number of duplicate or inactive
                                                                         the company complies with public health and safety laws and
firms listed, which affects the agency’s ability to efficiently
                                                                         regulations.
search for or select firms for review. FSIS agreed with our
recommendations to improve how the agency selects high-risk




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                      Goal 1




Michigan Dog-Fighting Ring Broken Up                                       USDA Official Sentenced for Aggravated Sexual
Working with the Monroe County, Michigan, Sheriff’s                        Assault of a Subordinate
Department, the Michigan State Police, and the Michigan                    In January 2011, OIG received allegations that a USDA
Humane Society, an OIG investigation led to the arrest of                  official engaged in inappropriate behavior towards a woman
27 individuals for organizing and attending a championship                 who worked for him. Our investigation disclosed that, from
dog-fighting match in southeast Michigan. The event drew                   2009 through 2010, the USDA official sexually assaulted
participants from four States, including individuals from as far           his subordinate on multiple occasions. As a manager, this
away as Georgia. With the assistance of the Monroe County                  individual was expected to be a role model of professional
Prosecutor’s Office, OIG agents obtained a search warrant,                 conduct and non-discriminatory behavior in his work
disrupted the fight, and arrested the participants. Five pit bull          relationships; instead, he used his position and status to
fighting dogs were seized during the raid, two of which died               victimize his employee. In February 2011, this official was
from injuries suffered during the championship fight. Officers             charged in Superior Court for the District of Columbia with
also seized approximately $40,000 in cash, cocaine, marijuana,             four counts of aggravated sexual assault. In March 2011, he
two firearms, and dog-fighting paraphernalia. Many of the                  pled guilty to one misdemeanor count of sexual assault, and he
defendants pled guilty to felony charges of attending and                  was sentenced in April 2011 to 5 months’ incarceration. He
participating in an animal-fighting venture. During August                 retired from his position with the Government.
and September 2011, two of the ringleaders received sentences
ranging from 8 to 15 years’ incarceration and fines totaling
$7,849. The remaining participants await sentencing.



  GOVERNMENT-WIDE ACTIVITIES—GOAL 1                                            σσ   The FBI’s Joint Interagency Agroterrorism Working
                                                                                    Group. OIG’s emergency response team continues
  Participation on Committees, Working Groups,                                      to participate in this working group, which develops
  and Task Forces                                                                   protocols and procedures for the FBI, APHIS, and
                                                                                    OIG to coordinate their response to agroterrorism.
  σσ     The Federal Bureau of Investigation’s (FBI) National
         Joint Terrorism Task Force. One OIG special agent is                  σσ   U.S. Marshals Service (USMS) Fugitive Task Forces.
         assigned full-time to the national task force and other                    OIG agents in Minnesota, Mississippi, and North
         special agents work with local task forces. While the                      Dakota participate on USMS Fugitive Task Forces
         national task force special agent attends threat briefings                 which were established under the Presidential Threat
         and provides terrorist intelligence products to OIG                        Protection Act of 2000. The purpose of these task
         and other USDA agencies and offices, local task forces                     forces is to locate and apprehend the most dangerous
         work on matters that involve the investigation of both                     fugitives and assist in high-profile investigations. In
         criminal activity and intelligence gathering involving                     addition to providing assistance in locating fugitives,
         individuals or entities that may have connection to                        task forces can provide help in serving warrants.
         terrorist activity or may provide support for terrorist               σσ   Food and Drug Administration (FDA) Task Force. OIG
         activity. Overall, OIG’s participation provides an                         agents are working on an FDA task force in southern
         excellent conduit for sharing critical law enforcement                     California investigating violations related to FDA-
         intelligence and has broadened the FBI’s and other                         regulated commodities, especially those being imported
         law enforcement agencies’ knowledge of how to                              from overseas into the United States. The task force
         conduct criminal investigations connected to food and                      investigates violations of laws involving all FDA-
         agriculture.                                                               regulated products, including food, drugs, medical




                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half            3
                                                                         Goal 1




           devices, and cosmetics. Other agencies on the task                     σσ    oversight of research facilities (APHIS),
           force are the Los Angeles Police Department (LAPD),                    σσ    assessment of inspection personnel shortages in
           Immigration and Custom Enforcement, the U.S. Fish                            processing establishments (FSIS),
           and Wildlife Service, and the National Oceanic and
                                                                                  σσ    application of sampling protocol for testing beef trim
           Atmospheric Administration.
                                                                                        for Escherichia coli O157:H7 (FSIS),
    σσ     Arrowhead Counter-Terrorism Task Force. OIG
                                                                                  σσ    inspection of swine slaughter facilities (FSIS),
           participates in a group of regional law enforcement
           and emergency response providers, led by the FBI field                 σσ    food defense verification procedures (FSIS),
           office in Duluth, Minnesota, which meets monthly for                   σσ    USDA controls over shell egg inspections (FSIS, AMS,
           training sessions and sharing information on various                         APHIS),
           terrorist organizations, as well as related topics, such as
                                                                                  σσ    review of appeals of humane handling noncompliance
           crisis response scenarios.
                                                                                        records (FSIS),
    σσ     Anti-Terrorism Advisory Councils. In many judicial
                                                                                  σσ    USDA’s response to colony collapse disorder
           districts, including the Northern District of Illinois,
                                                                                        (Agricultural Research Service (ARS), National
           the Eastern District of Michigan, the Eastern and
                                                                                        Institute of Food and Agriculture (NIFA), APHIS,
           Western Districts of Missouri, the Northern and
                                                                                        Risk Management Agency (RMA), Farm Service
           Southern Districts of Iowa, and the Districts of
                                                                                        Agency (FSA), Natural Resources Conservation Service
           Colorado, Kansas, and Minnesota, OIG participates
                                                                                        (NRCS), National Agricultural Statistics Service
           on Anti-Terrorism Advisory Councils. These councils
                                                                                        (NASS)), and
           are umbrella organizations including local, State,
           and Federal agencies and private-sector security                       σσ    the National Organic Program’s list of allowed and
           representatives which work with the U.S. Attorney’s                          prohibited substances (AMS).
           Offices for their geographic areas to disrupt, prevent,
           and prosecute terrorism through intelligence-sharing,                  ONGOING REVIEWS FOR GOAL 1
           training, strategic planning, policy review, and
                                                                                  USING RECOVERY ACT FUNDS
           problem-solving.
                                                                                  σσ    rehabilitation of flood control dams (NRCS).

    ONGOING REVIEWS FOR GOAL 1                                                    OIG’s annual plan for future audit and investigative work
                                                                                  under this goal may be found online at http://www.usda.gov/
    σσ     implementation of select agent or toxin regulations—
                                                                                  oig/webdocs/2012ABPFinal.pdf.
           followup (APHIS),
    σσ     effectiveness of the smuggling, interdiction, and trade
           compliance unit (APHIS),




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                  Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                  compliance activities related to Recovery Act requirements.
                                                                       Those issued during this reporting period are described in this
Reduce program vulnerabilities and strengthen                          semiannual report. We anticipate that our audit efforts will
program integrity in the delivery of benefits to                       continue into FY 2012.
program participants                                                   In addition, OIG staff has engaged in training and outreach
OIG conducts audits and investigations to ensure or restore            initiatives through presentations to professional organizations
integrity in various USDA benefit and entitlement programs,            involving State, local, and independent audit groups. OIG
including a variety of programs that provide payments directly         investigators have worked to ensure the integrity of Recovery
and indirectly to individuals or entities. Some of the programs        Act programs by investigating potential fraud as warranted,
are among the largest in Government: SNAP alone accounted              pursuing prosecutions, and overseeing a Recovery Act
for approximately $68 billion in FY 2011 benefits, while well          whistleblower investigation program. We continue to work
over $25 billion annually is spent on USDA farm programs.              closely with the Recovery Board and other IG offices to
Intended beneficiaries of these programs include the working           coordinate analytic and investigative work into potential
poor, hurricane and other disaster victims, and schoolchildren,        Recovery Act fraud. Since February 2009, investigators have
as well as farmers and other rural residents. These programs           participated in 125 meetings, outreach activities, and training
support nutrition, farm production, and rural development.             sessions with our Federal, State, and local partners to increase
                                                                       fraud awareness. We continue to expeditiously process hotline
The $28 billion in funding USDA received under the Recovery
                                                                       complaints related to the Recovery Act and track them closely
Act is being administered in a number of areas, including farm
                                                                       in order to meet the timeframes specified in the law. We also
loans, watershed programs, supplemental nutrition assistance,
                                                                       search for trends in the problems being reported in the use of
wildland fire management, and several rural development
                                                                       Recovery Act funds.
programs (such as rural housing, rural business, water and waste
disposal, and broadband). The Recovery Act also provided               In the second half of FY 2011, we devoted 50 percent of our
OIG with $22.5 million for “oversight and audit of programs,           total direct resources to Goal 2, with 96.8 percent of these
grants, and activities funded by this Act and administered by          resources assigned to critical/high-impact work. A total of 100
the Department of Agriculture.”                                        percent of our audit recommendations under Goal 2 resulted
                                                                       in management decision within 1 year, and 70 percent of our
To carry out these oversight responsibilities, OIG works
                                                                       investigative cases resulted in criminal, civil, or administrative
with USDA and the Inspector General community, as well
                                                                       action. OIG issued seven audit reports and three Recovery
as the Government Accountability Office and the Recovery
                                                                       Act fast reports under Goal 2 during this reporting period.
Accountability and Transparency Board (Recovery Board).
                                                                       OIG’s investigations under Goal 2 yielded 288 indictments,
Our Recovery Act oversight plan includes proactive, short-
                                                                       139 convictions, and about $51.7 million in monetary results
term, and long-term audit and investigative work. It can be
                                                                       during this reporting period.
found on our website at http://www.usda.gov/oig/recovery/
OIGSTIMULUSPLAN.pdf.
As of September 30, 2011, we had 42 Recovery Act audit                     Management Challenges Addressed UNDER GOAL 2
projects both planned and in process. Since February 17, 2009,
we have completed 33 audits and issued 59 fast reports (quick              σσ   Interagency Communications, Coordination, and
                                                                                Program Integration Need Improvement
turnaround reports intended to alert management to immediate
Recovery Act issues). There are 35 Recovery Act projects                   σσ   Implementation of Strong, Integrated, Internal Control
currently ongoing, and 7 scheduled to begin in FY 2012.                         Systems Still Needed (also under Goals 1, 3, and 4)
                                                                           σσ   Implementation of the Recovery Act (also under Goals
The completed audit reports and fast reports reviewed
                                                                                3 and 4)
development of USDA agency program guidance and
requirements, internal controls, eligibility criteria, and USDA




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half           5
                                                                Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                         overstating crop estimates in October 2008. We traced this
GOAL 2                                                               issue to FSA not adequately overseeing this data system and
                                                                     validating the data it contained. NASS can improve its data
Private Approved Insurance Providers (AIP) Did                       collection (and county yield estimates) by supplementing
Not Follow RMA’s Established Loss Adjustment                         its data, comparing that data with RMA’s information, and
Procedures                                                           by entering into formal data-sharing agreements with RMA
When Hurricane Wilma struck Florida on October 24, 2005,             and FSA. NASS agreed with our recommendation to use
it damaged citrus crops that many producers had insured              RMA’s data to cross-check and supplement its process for
with insurance policies reinsured by RMA. Though these               generating county-level yield estimates. The agencies also
policies were sold and serviced by AIPs, RMA reinsures losses        agreed to develop a formal agreement that maximizes NASS’
the AIPs suffer. Based on our review of 144 claims, we found         full, ongoing access to RMA’s data and to institute the controls
that two AIPs paid $37 million in indemnities, but did so            necessary to ensure the integrity of the data provided. (Audit
by circumventing established procedures for adjusting citrus         Report 50601-0015-KC, NASS Establishment of Average
losses. They did not follow RMA’s general loss procedures for        Yields)
adjusting citrus losses nor the emergency loss procedures RMA        NRCS Needs To Improve How Michigan Reviews
issued to expedite Hurricane Wilma-related payments. Instead,        Conservation Easement Appraisals for the Farm and
they used procedures or allowed options that were not approved       Ranch Lands Protection Program (FRPP)
by RMA, essentially indemnifying producers based on an
average yield even though the producers had farming records          Through FRPP, NRCS provides Federal funds to organizations
that would have helped the AIPs more accurately determine the        to purchase conservation easements in order to keep selected
producers’ actual losses.                                            parcels of land from being developed for non-agricultural
                                                                     purposes, such as housing. Based on our evaluation of NRCS’
We recommended that the two AIPs needed to review all                appraisal process and the agency’s controls over FRPP in
Florida citrus indemnities for which the AIPs requested average      Michigan, OIG questioned $7.6 million of the total $11.5
yields from RMA and recalculate and correct those indemnities.       million NRCS paid for these easements since FY 2006. The
If the AIPs cannot recalculate the correct indemnities payable to    NRCS State office accepted conservation easement appraisals
citrus producers using RMA-approved procedures, then RMA             even though they did not meet standards or were unsupported
needs to follow the Standard Reinsurance Agreement and deny          in three of the six cases we reviewed. Additionally, we found
reinsurance for indemnities totaling up to $44.1 million. RMA        that the State office failed to identify that 20 of the 34
agreed with our recommendations. (Audit Report 05099-                conservation easements, closed since FY 2006, had outdated
0029-At, Citrus Crop Indemnity Payments from Hurricane               appraisals which were over 12 months old at the time of
Wilma in Florida)                                                    conservation easement closing and may not have reflected
USDA Agencies Need To Improve the Data-Gathering                     current fair market value. We recommended that NRCS
Process Contributing to NASS’ County Yield Estimates                 review all pending FRPP conservation easement appraisals in
                                                                     Michigan to ensure that all have gone through the required
USDA and several of its agencies rely on data generated by
                                                                     review process and will be less than 12 months old at closing.
NASS to accurately estimate average county yields and issue
                                                                     NRCS generally agreed with our findings and agreed to
payments to producers who have been negatively affected by
                                                                     implement the recommended corrective actions. (Audit Report
the weather. Based on our review of NASS’ methodology for
                                                                     10099-0003-Ch, Natural Resources Conservation Service
estimating these yields, we concluded that NASS is providing
                                                                     Controls over the Farm and Ranch Lands Protection Program
reasonably accurate and reliable information.
                                                                     in Michigan)
During the course of the audit, however, we learned that
duplicate records in FSA’s crop acreage database led to NASS




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                  Goal 2




Rural Development Takes Action To Replace and                          funds to the recipient that had not yet been disbursed, and
Debar a Rural Rental Housing (RRH) Program                             creating a new requirement for grant recipients to list their
Management Company That Failed to Responsibly                          other Federal or State grant sources. Rural Development agreed
Operate Low-Income Apartment Complexes                                 with two of the six recommendations, and we continue to work
                                                                       towards resolving those remaining. (Audit Report 34004-
As part of a nationwide examination of the RRH Program,
                                                                       0001-KC, Rural Cooperative Development Grant Program
which helps to ensure that affordable housing is available in
                                                                       Eligibility and Grant Fund Use of Missouri Entity)
rural areas, we reviewed a management company operating
two apartment complexes to determine if the company was                Louisiana Physician Sentenced for Defrauding FSA
physically maintaining its apartments and managing them                An OIG investigation showed that a Louisiana doctor
according to program requirements. We found that the                   defrauded FSA by selling 4.5 million pounds of rice but never
apartment complexes managed by this company needed                     reporting the production. FSA later determined that the
immediate attention to prevent further deterioration of the            doctor’s farming operation would not have been eligible to
buildings and to ensure the tenants’ safety. We also found             receive disaster benefits or an emergency loan totaling $477,792
that the company charged about $153,000 in unallowable                 if the correct production had been reported. Additionally,
costs to the operating accounts we audited for a 3-year period.        OIG’s investigation found that the doctor disposed of farm
We recommended that Rural Development take action to                   equipment, cotton gin equipment, and an airplane, all pledged
replace the current company with another, more responsible             as security for the emergency loan. None of the proceeds
company, and also refer the current management company                 received from the sales of the aforementioned property were
and its principals to suspension and debarment officials for           applied to FSA’s loan, as required. In April 2011, in U.S.
possible action to protect all Federal programs from these non-        District Court, Western District of Louisiana, the doctor was
responsible individuals. Additionally, we recommended that             sentenced to 24 months’ incarceration, 36 months’ probation,
Rural Development officials recover approximately $153,000             and ordered to pay $344,515 in restitution.
in unallowable costs. Agency officials generally agreed with
our findings and recommendations. Since our nationwide                 Iowa Woman Illegally Sold Mortgaged Cattle
audit of the RRH Program is ongoing, we plan to include this           An Iowa woman was convicted of illegally converting 49 head
issue in a report addressing broader program concerns. (Audit          of cattle, valued at $49,779, which had been mortgaged as
Report 04601-0020-Ch, Rural Rental Housing Management                  collateral in exchange for two FSA-guaranteed farm operating
Company)                                                               loans. In February 2011, the woman was indicted in U.S.
                                                                       District Court, Northern District of Iowa, on one count of
Problems Found With Rural Cooperative Development
                                                                       conversion. In April 2011, she pled guilty and agreed to
Grant Program Eligibility and Grant Fund Use by
                                                                       pay restitution in the amount of $49,779. The woman was
Missouri Entity                                                        sentenced in August 2011 to 6 months’ imprisonment and
At the request of the Missouri State Rural Development                 3 years of supervised release.
Office, we audited the grants awarded to a specific recipient
through the Rural Cooperative Development Grant Program
                                                                       Oklahoma Cattle Producer Made False Statements
to determine whether the recipient met eligibility requirements
                                                                       Regarding Conversion of Collateral for an FSA
and properly used funds. We found that the recipient                   Guaranteed Loan
submitted duplicate invoices for reimbursement to both USDA            In June 2011, an Oklahoma cattle producer was sentenced in
and a Missouri State agency and failed to disclose significant         U.S. District Court, Western District of Oklahoma, to 20 days
conflicts of interest. We also found problems with how the             in jail and 5 years’ probation and was ordered to complete
State office serviced the grants. OIG recommended several              104 hours of community service for making false statements
actions, including recovering approximately $65,000 in                 during an official criminal investigation regarding his
reimbursements based on duplicate invoices, stopping award             conversion of livestock pledged as security for his FSA




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half        7
                                                                  Goal 2




guaranteed loan. In addition, the producer was ordered to pay          farmer was sentenced to 30 months in prison, followed by 36
$149,169 in restitution. This investigation was worked jointly         months of supervised release, and ordered to pay $221,516 in
with the Federal Deposit Insurance Corporation-OIG and the             fines and restitution. Also, in June 2011, under the civil false
FBI.                                                                   claims statute, a judgment was entered against the farmer in
                                                                       the amount of $500,000, representing damages, penalties, and
North Dakota Rancher Sentenced for Engaging in
                                                                       costs authorized. The farmer was placed on a 2-year repayment
Multiple Fraud Schemes
                                                                       plan; if he does not default on the scheduled payments, the civil
In August 2011, a North Dakota rancher was sentenced in                judgment will be reduced to $400,000.
U.S. District Court, District of North Dakota, to 24 months’
probation and ordered to pay $279,618 in restitution to
                                                                       Colorado Companies Pay $131,000 in Civil Settlement
FSA for making false statements and accepting FSA loans for            for Crop Insurance Investigation
cattle that he did not own. Our investigation showed that,             In order to obtain sales revenue in addition to undeserved
by exaggerating the number of cattle, the rancher was able to          insurance payments, two potato production companies in
obtain FSA loans totaling $390,000. The rancher also used              Colorado marketed and sold potatoes they had previously
those same false numbers to obtain an additional loan for              falsely reported to the Federal Crop Insurance Corporation
$191,900 from a local credit union.                                    (FCIC) as being destroyed. In 2004, the companies certified
                                                                       to FCIC that they had destroyed their entire potato crops—
New York Non-Profit Organization Chief Executive
                                                                       approximately 19 million pounds of potatoes, which they
Officer (CEO) Forges FSA Employee’s Signature in
                                                                       falsely claimed had been damaged by freezing temperatures. As
Loan Fraud Scheme                                                      a result, these two companies received approximately $405,000
In 2009, an FSA employee was contacted by two financial                in indemnity payments to which they were not entitled. In
institutions in regard to a grant agreement, which USDA had            addition, OIG found that the loss adjuster who worked these
supposedly entered into with a New York City non-profit                claims for the insurance company failed to follow proper policy
organization; however, when FSA reviewed a copy of the grant           and procedures, which allowed the false certification to be
agreement, it was clear that the signature of the FSA employee         processed. In June and July 2011, the two potato production
on the document had been forged. OIG’s investigation                   companies and the insurance company collectively agreed to
revealed that the CEO of the New York non-profit had signed            pay the Government $131,000 to resolve allegations that they
the document himself and had attempted to use the fraudulent           submitted false statements to USDA in connection with crop
USDA grant agreement as collateral to obtain loans. The loans          losses.
were denied when the fraud was discovered. In July 2011, the
CEO was found guilty of two counts of wire fraud in U.S.
                                                                       More North Carolina Farmers Sentenced in Crop
District Court, Southern District of New York. His sentencing
                                                                       Insurance Fraud Investigation
is pending. This investigation was worked jointly with the U.S.        In the SARC, First Half of FY 2011, OIG reported that a
Secret Service.                                                        large number of farmers in North Carolina concealed their
                                                                       tobacco production and then subsequently filed false crop
California Farmer Convicted of Making False Crop
                                                                       insurance claims and disaster claims based on non-existent
Insurance Claims                                                       losses. Sentencing related to this case continues. In July
An OIG investigation revealed that a California farmer filed           2011, a farmer was sentenced to 1 day in prison, 60 months’
six crop insurance benefit claims between 2001 and 2005                probation, and was ordered to pay $267,187 in restitution for
and received $383,053 in crop insurance payments. To                   his involvement in the scheme. Another farmer was sentenced
support these claims, he filed false statements with RMA and           in September 2011 to 1 day in prison, 36 months’ probation,
other USDA agencies regarding his ownership interest, crops            and was ordered to pay $138,777 in restitution. The court
planted, and total acreage planted. In February 2011, a jury           also ordered that both farmers be excluded for 24 months from
in U.S. District Court, Eastern District of California, found          USDA programs.
him guilty of 16 counts of false statements. In July 2011, the




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                       Goal 2




New Mexico Farmer Sentenced for Committing Tax                                    2011, was sentenced to 15 months’ imprisonment. He was
Fraud                                                                             also ordered to pay restitution totaling approximately $1.4
                                                                                  million jointly and severally with his mother. His mother’s
In August 2011, a New Mexico farmer was sentenced in U.S.                         sentencing was previously reported in the SARC, First Half
District Court, District of New Mexico, to 60 months in                           of FY 2011.
prison, followed by 36 months’ probation, and was ordered                   σσ    Deported Criminal Returns to United States and
to pay $18.2 million in restitution for failing to file personal                  Resumes EBT Fraud—In 1996, following an OIG
income tax returns since 1986. The individual in question also                    investigation, a Connecticut store owner was convicted of
provided fictitious Employer Identification Numbers to FSA in                     food stamp trafficking fraud and, as a result, was deported.
order to collect Federal farm aid totaling over $225,000. OIG                     He illegally re-entered the United States in 2000. With
first reported this farmer’s conviction in the SARC, Second Half                  the assistance of an accountant, he opened several stores
of FY 2010.                                                                       using other individuals’ names. The false owners of these
                                                                                  stores signed their names on FNS documents to obtain
Farmer Used Identity Theft Scheme To Obtain Crop                                  authorization to accept SNAP benefits, but the subject, his
Insurance Benefits                                                                wife, and his brother actually operated these stores and used
Our investigation found that a Minnesota farmer who was                           them to perpetrate a significant volume of SNAP electronic
                                                                                  benefit transfer (EBT) fraud. OIG again investigated and
barred from participating in FCIC’s crop insurance program
                                                                                  all three were charged with fraud in U.S. District Court,
used aliases and stole six social security numbers—including
                                                                                  District of Connecticut. The store owner and his brother
those of his girlfriend, his brother, and his deceased father—to
                                                                                  pled guilty. The owner was sentenced in June 2011 to
illegally obtain 12 crop insurance policies. In October 2009,                     57 months of incarceration, 3 years of probation, and
he was charged in U.S. District Court, District of Minnesota,                     restitution of $1.7 million, and will again be subject to
with four counts of making false statements. He pled guilty                       deportation. His brother was sentenced in May 2011 to
to one count of making false statements and was sentenced in                      21 months of incarceration, 12 months’ probation, and
October 2010 to 5 years’ probation and ordered to pay FCIC                        restitution to be determined in further court proceedings.
$48,445. He was also excluded from participating in any                           Court actions are pending against the store owner’s wife.
USDA programs for 5 years. The farmer subsequently appealed                 σσ    Gas Station Owners Defraud SNAP and the Special
the sentence and the sentence was upheld by the U.S. Court of                     Supplemental Nutrition Program for Women, Infants,
Appeals for the Eighth Circuit in April 2011.                                     and Children (WIC) Program—A Grand Rapids,
                                                                                  Michigan, family used their gas station to defraud the SNAP
SNAP Trafficking                                                                  and WIC programs of approximately $200,000 over a 3-year
A significant portion of OIG’s investigative resources are                        period. Because the owners and employees exchanged
dedicated to ensuring the integrity of SNAP by combating                          WIC and SNAP benefits for cash and accepted benefits in
the practice of exchanging benefits for cash. Working closely                     exchange for tobacco products and cell phone minutes, they
with FNS, OIG has concluded the following SNAP-related                            were redeeming approximately $25,000 a month in SNAP
                                                                                  benefits while competitors in the area were redeeming only
investigations and prosecutions in the second half of FY 2011:
                                                                                  $2,800. During the course of the investigation, the owner
σσ    Brooklyn Store Owner’s Son Sentenced for SNAP                               admitted to using the proceeds of this fraud to purchase a
      Trafficking—From September 2007 to September 2009,                          BMW automobile, which was seized by OIG. Agents also
      the owner of a Brooklyn food store and her son exchanged                    seized approximately $80,000 in cash from the gas station
      SNAP benefits for cash in a series of trafficking transactions              and the owner’s residence during the investigation. Each
      that amounted to $1.4 million. In September 2009, in                        family member was indicted on charges of SNAP and WIC
      U.S. District Court for the Eastern District of New York,                   fraud, conspiracy, and money laundering. In July 2011,
      the store owner and her son were charged with conspiracy                    four individuals were sentenced to incarceration periods
      to commit SNAP trafficking. The owner’s son fled, but was                   ranging from 21 to 27 months, restitution of $197,235, and
      apprehended in Florida in July 2010. The son pled guilty                    $30,000 in fines. Two of the subjects resided in the United
      to conspiracy to commit SNAP trafficking and, in June                       States illegally and are expected to be deported.




                                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half          9
                                                                    Goal 2




σσ   Detroit Brothers Once Again Defraud SNAP—In April                        sales fell short of $280,000. Due to our investigation, the
     2011, a Detroit, Michigan, store owner and his brother, who              store’s owner pled guilty in Federal court for the Northern
     were disqualified from the Food Stamp Program in 2002                    District of Illinois, to charges including wire fraud, aiding
     after a previous trafficking investigation, were sentenced               and abetting, and bribery of a public official. In August
     in U.S. District Court, Eastern District of Michigan, to                 2010, the store owner fled the United States, resulting in
     incarceration periods ranging from 12 to 27 months,                      the forfeiture of his $100,000 home; he was subsequently
     2 years’ supervised release, and $679,232 in restitution.                extradited to the United States to face charges. In June
     A store employee was also sentenced to 4 years’ probation,               2011, the owner was sentenced to 36 months in prison and
     4 months’ home confinement, and ordered to pay $41,000                   was ordered to pay $549,614 in restitution. The judge also
     in restitution. Our investigation found that, from                       granted an order of forfeiture in the amount of $549,614.
     November 2007 to August 2009, the brothers bought SNAP              σσ   Illinois Convenience Store Manager Imprisoned for
     benefits from recipients for approximately 50 cents on the               $1.5 Million in SNAP Fraud—An OIG investigation
     dollar on the same site where they had previously committed              found that both the owner and the manager of a store
     trafficking fraud. Agents seized approximately $97,000 in                in Washington Park, Illinois, who were brothers, were
     fraudulent profits subject to forfeiture. This investigation             trafficking in EBT benefits between October 2004 and
     was conducted jointly with the Internal Revenue Service                  October 2008. During the investigation, OIG discovered
     Criminal Investigations division and the Michigan State                  that the owner of the Washington Park store also owned
     Police.                                                                  a store in St. Louis, Missouri, and that his brother was
σσ   Cincinnati Store Exchanges SNAP Benefits for Drugs                       managing that store and trafficking in SNAP EBT benefits
     and Weapons—A 2-year joint criminal investigation led                    there as well. The manager was arrested in May 2010 and
     by USDA OIG disclosed that the owner, manager, and                       charged with SNAP fraud to which he pled guilty. In June
     employees of two SNAP-authorized retailers in Cincinnati                 2011, in U.S. District Court, Southern District of Illinois,
     exchanged SNAP benefits for firearms, cash, stolen tobacco               the manager was sentenced to 33 months of imprisonment
     products, narcotics, and drug paraphernalia. In April 2011,              and ordered to pay $1.5 million in restitution for his role in
     two store employees, who were brothers, were sentenced                   SNAP trafficking at the Illinois store. After he completes
     in U.S. District Court, Southern District of Ohio, to 51                 his Federal prison sentence, he is subject to deportation
     months’ incarceration followed by 3 years’ supervised                    to Jordan. The owner fled the country and is currently in
     release, and were ordered to pay fines. The men’s mother                 Jordan.
     was sentenced in May 2011 in an Ohio county court                   σσ   Two California Men Sentenced for SNAP Trafficking—
     to time served, 6 months’ home confinement, 3 years’                     In November 2008, OIG received information from an
     supervised release, and court costs of $100 after agents                 individual alleging that a parking attendant in Pasadena,
     found SNAP EBT cards in her purse while searching for                    California, was exchanging cash for SNAP benefits from
     evidence involving her sons’ illegal SNAP trafficking. Their             homeless recipients in the local community. In February
     father was sentenced to probation in September 2011 in                   2011, OIG and the Pasadena Police Department executed
     Hamilton County, Ohio Court of Common Pleas, after he                    search warrants that uncovered multiple EBT cards in the
     pled guilty to SNAP fraud and receipt of stolen property.                man’s possession, as well as $2,000 in cash. On the same
     One of the store owners and a manager are scheduled to                   day, the defendant was arrested for grand theft. In March
     be tried criminally in Hamilton County later this year                   2011, the man was charged in State court with food stamp
     for illegal use of SNAP benefits. This investigation was                 trafficking and receiving stolen property. An individual
     conducted jointly with the U.S. Secret Service; the Bureau               who was involved in criminal activities with the parking lot
     of Alcohol, Tobacco, Firearms and Explosives; the Ohio                   attendant was later charged with welfare fraud, receiving
     Department of Public Safety Investigative Unit; and the                  stolen property, and conspiring to commit a crime. Both
     Cincinnati Police Department.                                            subjects pled guilty in June 2011. The parking lot attendant
σσ   Chicago Store Owner Defrauds SNAP and Bribes a                           was sentenced to serve 5 years’ probation, perform
     Public Official—From April 2004 through September                        180 hours of community labor, and pay restitution of
     2005, a Chicago store redeemed more than $800,000                        $6,200. The accomplice was sentenced to 3 years’ probation
     in SNAP benefits, despite the fact that its reported food                and was ordered to be deported to Mexico.




10    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                 Goal 2




California Retail Theft Ring Sentenced for Selling                    sentenced in U.S. District Court, Southern District of Georgia,
Stolen Infant Formula                                                 to 33 months in prison, followed by 36 months’ probation, and
                                                                      ordered to pay $173,257 in restitution. The court also ordered
In July 2008, OIG received a lead concerning a California
                                                                      the forfeiture of BMW and Audi automobiles.
business that was reportedly purchasing large quantities of
stolen infant formula. Working jointly with the LAPD and              Former Private School Administrator Pleads Guilty To
the FBI, OIG learned that multiple individuals were involved          Defrauding the Child Nutrition Program
in an expansive organized retail theft ring which controlled a        We found that, from September 2005 to April 2006, a
large-scale “fencing” operation where they purchased stolen           former administrator of a private charter school in Wisconsin
items from “boosters,” teams of thieves that steal from grocery       submitted false meal reimbursement claims for more than
and pharmacy stores. The investigation disclosed that the             117,948 meals, totaling at least $165,913, to the Wisconsin
theft ring paid boosters between $5 and $10 for cans of infant        Department of Public Instruction. These false meal claims
formula that normally sell for between $15 and $30. They              allowed the school to fraudulently receive more CACFP funds
then sold the formula to a distributor for resale.  During the        than it was entitled to. In January 2011, in U.S. District
investigation, there was indication that the formula may have         Court, Eastern District of Wisconsin, the former administrator
been repackaged and the expiration dates changed.  In addition,       of the school was charged with five counts of mail fraud and
safety concerns centered around the storage of the formula            one count of money laundering. He pled guilty to one count
since it was removed from normal distribution channels.               of mail fraud and one count of money laundering in March
In August 2010, agents from OIG, LAPD Major Crimes,                   2011. In August 2011, the former administrator was sentenced
and FBI Counter Terrorism conducted search and seizure                to 18 months of incarceration and 3 years of probation.
operations at homes and storage locations used to fence stolen        He was also ordered to pay $160,124 in restitution to the
infant formula. They seized more than $100,000 in currency            Wisconsin Department of Public Instruction.
and more than 7,000 cans of infant formula. Three individuals         Food Service Director Defrauds National School
were arrested and charged in California State Court with
                                                                      Lunch Program (NSLP)
criminal violations, including receipt of stolen property and
money laundering. In April 2011, two of the three defendants          From 2002 to 2005, a Michigan school district’s food service
pled guilty to California penal violations. One defendant was         director submitted false claims to the Michigan Department
sentenced to 2 years in State prison, ordered to pay $20,000          of Education for meal reimbursement under NSLP and the
in restitution, and fined $270. The second defendant was              School Breakfast Program. Our investigation disclosed that this
sentenced to 16 months in State prison and fined $270. In             individual substantially misrepresented meal counts, claimed
August 2011, a third defendant was sentenced to 16 months             higher reimbursement rates, and submitted reimbursement
in State prison and ordered to pay $26,477 in fines and               claims for meals served to students who were not eligible to
restitution. Three other individuals remain at large.                 participate in the program. The director also embezzled funds
                                                                      paid to the school district for catering services. In December
Former Nutrition Specialist of a Day Care Sponsor                     2007, the Michigan Department of Education allowed the
Sentenced to Prison for Child and Adult Care Food                     school district to forfeit $341,208 of its future NSLP payments
Program (CACFP) Fraud                                                 and immediately repay $65,810 in order to settle excess claims
A joint investigation by OIG, the U.S. Department of Health           that had been made. In July 2011, after a jury trial in U.S.
and Human Services’ OIG, and the FBI determined that the              District Court, Eastern District of Michigan, the former food
former nutrition specialist of a day care sponsoring organization     service director was convicted of defrauding NSLP. He was
in Georgia submitted false claims to receive excessive CACFP          sentenced to 12 months in a community corrections center,
reimbursements and then laundered the proceeds through local          3 years’ probation, and ordered to pay a special assessment of
businesses. In June 2011, the former nutrition director was           $100. This investigation was conducted jointly with the FBI.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half      11
                                                                 Goal 2




RECOVERY ACT REVIEWS                                                  the Recovery Act, we reviewed a statistical sample of 100 loans
                                                                      drawn from the overall portfolio of more than 81,000 loans—
Rural Development provides loans to families in rural areas           worth more than $10 billion in Recovery Act obligations. Of
to help ensure that they have access to affordable housing.           these 100 loans, we found that the borrowers for 33 loans
Because the Recovery Act provided a total of $11.5 billion in         were ineligible because they did not demonstrate their ability
additional loans for the Single Family Housing Program, OIG           to repay the loan, they exceeded income requirements, they
has performed substantial audit work on both direct loans and         possessed sufficient financial resources to obtain loans without
the guaranteed loans Rural Development provides as part of            a Government guarantee, or they already owned adequate
this program.                                                         housing in their local commuting areas. Additionally, three
Rural Development Can Improve How It Determines                       borrowers purchased homes with swimming pools, which the
if Borrowers Are Eligible for Direct Single Family                    Recovery Act specifically prohibits.
Housing Recovery Act Loans                                            Based on these results, we estimated that 30,310 loans (almost
As part of OIG’s ongoing work to review over $1 billion               37 percent of the overall portfolio) were ineligible with a
in Recovery Act funds allotted to the Single Family                   projected total value of $4.16 billion. Included in our overall
Housing Direct Loan Program, we evaluated whether Rural               results, we projected that 11,661 loans (over 14 percent of
Development field staff complied with the agency’s internal           the overall Recovery Act portfolio), with a total value of
control procedures for making loans, and whether the homes            $1.3 billion, were made to ineligible borrowers who are at
and borrowers in the program met eligibility guidelines. From         greater risk of defaulting on their loans. We had initially
a statistical sample of 100 of the 8,100 loans that had closed as     reported these issues in a December 2010 fast report to agency
of June 30, 2010, we identified 18 with questionable borrower         officials for their immediate attention. In the final report, we
eligibility determinations. We found that Rural Development           made 29 recommendations to Rural Development. These
field personnel approved borrowers who had no history of              recommendations were intended to improve the Single Family
stable and dependable income, had credit histories that did           Housing Guaranteed Loan Program as a whole, as well as
not indicate the ability and willingness to repay a loan, and         correct problems with loans guaranteed with Recovery Act
could not meet repayment ability guidelines. Based on our             funding. Agency officials generally supported the need for
results, we estimate that 1,450 loans with a projected total value    program improvement and agreed with our recommendations,
of $173 million may have been made to similarly ineligible            but did not agree with some of the audit findings. (04703-
or high-risk borrowers. We recommended further training,              0002-Ch, Controls over Eligibility Determinations for Single
improved guidance, and more detailed underwriting tools for           Family Housing Guaranteed Loan Recovery Act Funds—Phase
field personnel. Rural Development generally agreed with our          2)
recommendations regarding the need for more training and              RUS Needs To Report More Complete Information
improved guidance and tools and is reviewing each of the              Concerning the Timing of Recovery Act Water and
18 loans in question. Because this review is ongoing, RHS has
                                                                      Waste Disposal Projects
not agreed with our conclusions for each of the 18 loans or our
estimate that 1,450 loans could have been made to ineligible          RUS’ Water and Waste Disposal System Program provides
or high-risk borrowers. (Fast Report Audit 04703-0003-KC (1)          loans and grants to help towns with 10,000 or fewer people
Single Family Housing Direct Loans Recovery Act Controls—             improve their sewer, storm water, and solid waste disposal
Compliance Review of Borrowers’ Eligibility)                          systems. Since the inception of the Recovery Act, RUS has
                                                                      obligated $3.3 billion in funding for these projects. The agency
Rural Development Can Improve How It Determines                       considers the obligation date the “start” of a project. We found,
if Borrowers Are Eligible for Single Family Housing                   however, that, due to preconstruction requirements, actual
Recovery Act Loan Guarantees                                          project construction might not begin until months, or even
In order to evaluate the eligibility of borrowers who obtained        years, after the funds were obligated. For 14 of 22 projects
single family housing loan guarantees from funds authorized by        we reviewed, the time between when funds were obligated




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                Goal 2




and when construction started ranged from 5 to 21 months,            improvements. When we examined a sample of 27 watershed
while the estimated start of construction for 5 of 22 projects       operation agreements for projects NRCS decided to fund, we
ranged from 25 to 36 months following obligation of funds.           found that none of the agreements included certain award
By clarifying the time needed to initiate project construction       term provisions required by the Recovery Act, which called for
following the obligation of funds and its impact on the timing       unprecedented accountability in the use of funds to promote
of spending and job creation, RUS can better inform the public       economic recovery. The lack of clear national policy to include
of the water and waste disposal process. We recommended that         certain provisions led to different interpretations by States.
RUS explain on Recovery.gov the time needed to initiate actual       Consequently, grant agreements and local contracts totaling
construction for each water and waste disposal project following     over $33.6 million may not have been properly implemented.
the obligation of funds, and this timeframe’s impact on timing       We recommended that NRCS issue guidance concerning the
of project spending and jobs created. RUS responded that it is       award terms to include in agreements, and that NRCS amend
committed to providing the public with information regarding         existing agreements to include them. NRCS responded that,
this program and will add the additional information to the          although it did not immediately issue a policy, it had provided
appropriate websites. (Fast Report Audit 09703-0001-At, Rural        guidance to the States via the NRCS Recovery Act Sharepoint
Utilities Service Needs to Improve Project Transparency for the      site. Following our audit, NRCS took corrective action by
Water and Waste Disposal System Recovery Act Projects)               issuing specific national policy and by directing States to
                                                                     amend the existing active grants and agreements that they had
NRCS Needs To Ensure Agreements Include Required
                                                                     contractual authority to amend. (Fast Report 10703-0004-KC
Recovery Act Terms
                                                                     (1), American Reinvestment and Recovery Act—Watershed
Congress allotted $145 million in Recovery Act funds to              Protection and Flood Prevention Operations Program—Grants
NRCS to assist State and local governments with project plans        and Locally Led Contracts Do Not Include All Required
for watershed protection, flood mitigation, and water quality        Recovery Act Award Terms)




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half       13
                                                                   Goal 2




 GOVERNMENT-WIDE ACTIVITIES—GOAL 2                                               enforcement and various regulatory agencies, with the
                                                                                 U.S. Attorney’s Office and IRS-Criminal Investigations
 Participation on Committees, Working Groups,                                    typically in lead roles. OIG focuses specifically on
 and Task Forces                                                                 reports of suspected criminal activities by business
                                                                                 entities and individuals involved in USDA programs
 σσ    Operation Talon. OIG began Operation Talon in 1997
                                                                                 and operations such as SNAP and WIC violations,
       to catch fugitives, many of them violent offenders,
                                                                                 stolen infant formula, and farm-related cases.
       who are current or former SNAP recipients. Since its
       inception, Operation Talon has led to the arrests of                 σσ   Mortgage Fraud Task Forces. OIG investigators
       thousands of fugitive felons. During the second half of                   participate in mortgage fraud task forces in California,
       FY 2011, OIG agents conducted Talon operations in                         Michigan, New Hampshire, and North Carolina, in
       9 States and made more than 480 arrests. OIG                              addition to a national mortgage fraud working group
       combined forces with Federal, State, and local law                        that meets monthly in Washington, D.C. These
       enforcement agencies to arrest fugitives for such                         task forces identify trends, share information, and
       offenses as arson, assault, blackmail, robbery, sex                       coordinate investigations related to mortgage fraud.
       offenses, weapons violations, drug charges, and offenses                  They are working to improve efforts across the Federal
       against family and children.                                              executive branch and, with State and local partners,
                                                                                 investigate and prosecute significant mortgage crimes,
 σσ    Bridge Card Enforcement Team. OIG investigators
                                                                                 ensure just and effective punishment for those who
       work with this team to investigate criminal SNAP and
                                                                                 perpetrate financial crimes, combat discrimination in
       WIC violations. Team members include the Michigan
                                                                                 the lending and financial markets, and recover proceeds
       State Police and IRS investigators. The FBI and
                                                                                 for victims of financial crimes. The task forces are
       Michigan Department of Human Services-OIG have
                                                                                 headed by representatives from U.S. Attorney’s
       also helped during search warrant operations. Since
                                                                                 Offices and the FBI. They include participants from
       2007, our teamwork has resulted in 116 arrests and
                                                                                 Federal program agencies and regulatory agencies
       150 search warrants served in Michigan. The U.S.
                                                                                 including the U.S. Department of Housing and
       Attorney’s Office for the Eastern and Western Districts
                                                                                 Urban Development, the IRS, the Social Security
       of Michigan and the Michigan Attorney General’s
                                                                                 Administration, local district attorney’s offices, and
       Office are pursuing multiple criminal prosecutions,
                                                                                 police departments.
       with cases so far resulting in 93 guilty pleas. Sentences
       have included lengthy incarceration periods and                      σσ   Organized Retail Theft Task Forces. As a member of the
       $21.1 million in court-ordered fines and restitution.                     Retail Merchants Association of North Carolina Retail
       The U.S. Attorney’s Office has initiated forfeitures                      Theft Initiative, OIG agents coordinate, plan, and
       totaling over $3.2 million.                                               meet regularly with various retail merchants in North
                                                                                 Carolina to discuss a proactive investigative strategy
 σσ    Suspicious Activity Reports Review Teams. OIG agents in
                                                                                 to develop cases involving retail theft. The purpose
       Alabama, Maine, Massachusetts, Iowa, Kentucky, New
                                                                                 of this working group is to coordinate investigations
       Hampshire, Michigan, Minnesota, Mississippi, North
                                                                                 of convenience stores and retail outlets which may be
       Carolina, North Dakota, Oregon, South Carolina,
                                                                                 involved in the theft and resale of retail property such
       and South Dakota participate on suspicious activity
                                                                                 as infant formula, electronics, and other retail items.
       review teams which are coordinated by the U.S.
                                                                                 As members of the Bay Area Organized Retail Crime
       Department of Justice through the U.S. Attorney’s
                                                                                 Association, OIG agents work with San Francisco Bay
       Offices. These review teams systematically review
                                                                                 Area law enforcement agencies and organized retail
       all reports of suspicious activity that affect a specific
                                                                                 crime investigators from major retailers to identify and
       geographic jurisdiction, identify individuals who may
                                                                                 coordinate action against organized retail theft rings,
       be engaged in criminal activities, and coordinate and
                                                                                 as well as to identify retail items susceptible to theft by
       disseminate leads to appropriate agencies for followup.
                                                                                 such organized groups of thieves.
       These teams generally include representatives from law




14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                  Goal 2




σσ   Western Region Inspectors General Council, Northwest                  σσ    National Organic Program (AMS),
     Inspectors General Council, Association of Inspectors                 σσ    rural rental housing maintenance cost and inspection
     General, and other western region working groups,                           procedures (RHS),
     including the North Sound Regional Intelligence
                                                                           σσ    Rural Development procurement (RUS, Rural
     Group; the South Sound Regional Intelligence Group,
                                                                                 Business-Cooperative Service (RBS), RHS), and
     and the Tukwila, Washington, Working Group. OIG
     investigators work with these councils and groups to                  σσ    NLSP—food service management companies and cost
     develop Recovery Act training, share information,                           reimbursable contracts (FNS).
     discuss ongoing and potential work of mutual interest,
     and strengthen working relationships. In addition,                    ONGOING REVIEWS FOR GOAL 2 USING RECOVERY
     Western Region OIG investigators organize and                         ACT FUNDS
     participate in meetings to enhance coordination
     between Federal, State, and local law enforcement                     σσ    Trade Adjustment Assistance for Farmers Program
     agencies in the Pacific Northwest.                                          (Foreign Agricultural Service (FAS), FSA, NIFA),

σσ   OIG agents participated in other task forces and                      σσ    controls over aquaculture grant funds (FSA),
     working groups related to benefits fraud, including:                  σσ    Recovery Act supplemental revenue assistance
     •	 Recovery Act Task Force in the Pacific                                   payments (FSA),
        Northwest working on a joint investigation                         σσ    Emergency Watershed Protection Program floodplain
        based on a Recovery Accountability                                       easements—non-agricultural land (NRCS),
        and Transparency Board referral;                                   σσ    Emergency Watershed Protection Program floodplain
     •	 Somali Working Group in California;                                      easements—field confirmations (NRCS),
     •	 Social Services Fraud Working Task Forces                          σσ    Emergency Watershed Protection and Flood Prevention
        in Oregon and Washington State; and                                      Operations Programs—field confirmations (NRCS),
     •	 SNAP Working Group in Washington State.                            σσ    Recovery Act impacts on SNAP (FNS),
σσ   Technical Assistance to the National Institute of Food and            σσ    State fraud detection efforts for SNAP (FNS),
     Agriculture (NIFA). OIG auditors continue to provide                  σσ    rural business enterprise grants (RBS),
     technical assistance to NIFA during its financial and
                                                                           σσ    Business and Industry Guaranteed Loan Program
     administrative review of one of its grantees.
                                                                                 (RBS),

ONGOING REVIEWS FOR GOAL 2                                                 σσ    single family housing direct loans—loan file
                                                                                 compliance reviews (RHS),
σσ   validity of new producers (RMA),
                                                                           σσ    controls over rural community facilities’ direct grant
σσ   approved insurance providers’ reduction of inconsistent                     and loan programs (RHS),
     yields (RMA),
                                                                           σσ    controls over water and waste loans and grants
σσ   2008 Farm Bill’s changes to payment limitation (FSA),                       expenditures and effectiveness reviews (RUS), and
σσ   Biomass Crop Assistance Program—Collection,                           σσ    evaluation of loss claims related to funds distributed
     Harvest, Storage, and Transportation matching                               through single family housing guaranteed loans (RHS).
     payments (FSA),
                                                                           OIG’s annual plan for future audit and investigative work
σσ   Farm Storage Facility Loan Program (FSA),
                                                                           under this goal may be found online at http://www.usda.gov/
σσ   Conservation Reserve Program’s soil rental rates (FSA),               oig/webdocs/2012ABPFinal.pdf.
σσ   oversight of agreements reached in program complaints
     (Office of the Assistant Secretary for Civil Rights),
σσ   CACFP followup audit (FNS),




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half              15
                                                                     Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 3
Support USDA in implementing its management
improvement initiatives                                                   USDA Needs To Better Secure Its Wireless Handheld
                                                                          Devices
OIG conducts audits and investigations that focus on such
                                                                          Like other Federal Departments, USDA increasingly relies on
areas as improved financial management and accountability,
                                                                          smart phones and other handheld wireless devices to conduct
information technology (IT) security and management,
                                                                          its day-to-day business. These devices are small, inexpensive,
research, real property management, employee integrity, and
                                                                          and powerful, but their portability poses new security risks for
the Government Performance and Results Act. Our work
                                                                          Federal agencies. We found that the devices we tested were not
in this area is vital because the Department is entrusted with
                                                                          adequately secured, according to National Institute of Standards
$28.5 billion in public resources annually. The effectiveness
                                                                          and Technology (NIST) standards. These problems occurred
and efficiency with which USDA manages its assets are critical.
                                                                          because USDA deployed these devices using a decentralized
USDA depends on IT to efficiently and effectively deliver
                                                                          approach, but did not provide its agencies with clear guidance
its programs and provide meaningful and reliable financial
                                                                          on how they were to configure their devices and servers. We
reporting. One of the more significant dangers USDA faces
                                                                          recommended that OCIO develop NIST-compliant guides
is a cyber attack on its IT infrastructure, whether by terrorists
                                                                          and monitor agencies’ compliance. We also made a specific
seeking to destroy unique databases or criminals seeking
                                                                          recommendation to ARS to centralize its acquisitions and
economic gain.
                                                                          security over its wireless handheld devices. OCIO and ARS
In the second half of FY 2011, we devoted 33 percent of                   generally concurred with the recommendations. Additionally,
our total direct resources to Goal 3, with 99 percent of these            the Department issued policies that adequately addressed our
resources assigned to critical/high-impact work. A total of 100           concerns regarding the management of wireless devices and the
percent of our audit recommendations under Goal 3 resulted                roles and responsibilities of the personnel responsible for those
in management decision within 1 year, and 71 percent of our               devices. (Audit Report 50501-0001-IT, USDA’s Management
investigative cases resulted in criminal, civil, or administrative        and Security over Wireless Handheld Devices)
action. OIG issued 11 audit reports under Goal 3 during this
reporting period. OIG’s investigations under Goal 3 yielded               APHIS Needs To Establish Better Controls Over Its
16 indictments, 16 convictions, and $14.1 million in monetary             Information Systems
results during this reporting period.                                     APHIS implemented a database system in 2006 without
                                                                          ensuring that the system met Federal information systems
                                                                          security requirements. The database system contains private
 Management Challenges Addressed UNDER GOAL 3                             personal information, as well as sensitive information obtained
                                                                          from other agencies and departments. In response to our fast
 σσ     Implementation of Strong, Integrated, Internal Control            report, APHIS officials stated they had already notified the
        Systems Still Needed (also under Goals 1, 2, and 4)
                                                                          Department’s Office of the Chief Information Officer (OCIO)
 σσ     Continuing Improvements Needed in IT Security                     regarding the existence of the database system and would
 σσ     Strengthen Efforts To Identify, Report, and Reduce                work with OCIO to complete the required certification and
        Improper Payments                                                 accreditation process. APHIS also agreed to review all APHIS
 σσ     Implementation of the Recovery Act (also in Goals 2               servers, using available network scanning tools, develop a
        and 4)                                                            complete inventory of systems, and identify any unauthorized
                                                                          systems. (Fast Report Audit 33601-0012-Ch (1), Animal and
                                                                          Plant Health Inspection Service Effectiveness of the Smuggling,
                                                                          Interdiction, and Trade Compliance Unit)




16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                   Goal 3




FSA Needs To Reduce Improper Payments in                                related to the control objectives stated in the descriptions
Programs Intended To Help Farmers Recover From                          were suitably designed and operating effectively to provide
Natural Disasters                                                       reasonable assurance that the control objectives would be
                                                                        achieved. (Audit Report 88501-0001-11, Statement on
In order to assist American farmers and ranchers as they recover
                                                                        Standard for Attestation Engagements No. 16, Report on
from losses caused by natural disasters, FSA operates a number
                                                                        Controls at the National Information Technology Center;
of different programs, including the Supplemental Revenue
                                                                        Audit Report 11401-0002-11, Statement on Standard for
Assistance Payments Program, the Livestock Forage Disaster
                                                                        Attestation Engagements No. 16, Report on Controls at the
Program, the Emergency Conservation Program, the Livestock
                                                                        National Finance Center)
Indemnity Program, and the Dairy Economic Loss Assistance
Program. These five programs made $2.4 billion in payments in           USDA Retirement, Health, and Life Insurance
FY 2010.  OIG reviewed 130 of those payments and found                  Withholdings Were Reasonable
18 errors resulted in $61,714 in improper payments. FSA                 As required annually by the Office of Management and Budget
officials agreed that corrective action was needed and have             (OMB), we assisted the Office of Personnel Management
taken steps to reduce these errors by using additional tools to         (OPM) in assessing the reasonableness of retirement, health,
enhance the manual program payment calculation process.                 and life insurance withholdings and employee data submitted
(Audit Report 03024-0001-11, Fiscal Year 2010 Farm Service              by OCFO and NFC. We found no differences that exceeded
Agency Farm Assistance Program Payments)                                the allowable OPM thresholds. For FY 2011, however, OPM
USDA Needs To Improve Its Reporting of High-Dollar                      added procedures for verifying Combined Federal Campaign
Overpayments                                                            (CFC) deductions made by the payroll providers. For one pay
                                                                        period, we identified over 5,000 records in NFC’s system where
As required by Executive Order 13520, Reducing Improper
                                                                        the CFC deductions were sent to different campaign areas
Payments High Dollar Report Review, OIG reviews agencies’
                                                                        than those designated by OPM. This represents approximately
quarterly reports on high-dollar overpayments in high-risk
                                                                        5 percent of the total CFC deductions for all entities NFC
programs and makes recommendations, as necessary, to
                                                                        services. (Audit Report 11401-0001-11, Agreed-Upon
help agencies recover and prevent high-dollar overpayments.
                                                                        Procedures: Retirement, Health Benefits, and Life Insurance
According to the executive order, a high-dollar overpayment
                                                                        Withholdings/Contributions and Supplemental Semiannual
is one that exceeds 50 percent of the correct amount of the
                                                                        Headcount Report Submitted to OPM)
intended payment. Our review of the FY 2010 high-dollar
report found that USDA submitted its high-dollar overpayment            Joint Government Investigation Results in $8 Million
reports after the deadline, did not report all high-dollar              Civil Settlement With Overnight Delivery Company for
overpayments, and was not accurately reporting its corrective           Falsifying Reasons for Delivery Delays
actions. We also determined that USDA’s current reporting               When a whistleblower alleged that a well-known package
format for listing overpayment amounts could be misleading.             delivery service’s drivers were abusing delivery delay codes
We recommended that the Department and its agencies take                in order to excuse their lateness in delivering packages to
steps to formalize and improve their reporting processes. The           Government offices, USDA OIG joined with the U.S.
Department concurred with our recommendations. (Audit                   Department of Justice and the General Services Administration
Report 50024-0001-FM, Calendar Year 2010)                               OIG to investigate these claims. The investigations team found
OCIO/National Information Technology Center (NITC)                      that the company had falsely coded late deliveries as being
and Office of the Chief Financial Officer (OCFO)/                       delayed by security measures. The falsification of delivery
National Finance Center (NFC) Controls Were Suitably                    information involved packages delivered to USDA, the General
Designed and Operating Effectively                                      Services Administration, the U.S. Department of Justice, and
                                                                        other Federal agencies. As a result of this joint investigation,
In two separate reports, based on the criteria described in
                                                                        the package delivery service agreed to pay the United States an
OCIO/NITC and OCFO/NFC assertions, we found the
                                                                        $8 million civil settlement to settle False Claims Act litigation
descriptions of controls fairly present the systems that OCIO/
                                                                        filed in this case.
NITC and OCFO/NFC implemented. Also, the controls




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half          17
                                                                     Goal 3




FS Employee Receives 60 Months in Prison for Raping                       One laboratory employee facilitated the scheme by taking
a Minor                                                                   orders from other employees, placing consolidated orders with
                                                                          the supply companies, and then distributing the drugs upon
In April 2011, a FS employee in Oregon pled guilty to State
                                                                          receipt. In June 2011, this employee was charged and pled
charges of sexually assaulting a 16-year-old girl on FS property
                                                                          guilty in U.S. District Court, Southern District of Iowa, to
the previous summer. He was sentenced to 60 months of
                                                                          one count of causing certain drugs to be shipped in interstate
incarceration and was also required to register as a sex offender.
                                                                          commerce. She was sentenced in August 2011 to 1-year
He resigned from this FS position prior to his sentencing. This
                                                                          probation and fined $250. The employee had previously been
case was investigated jointly by OIG and the Harney County,
                                                                          removed from her position. Prior to this reporting period,
Oregon, Sheriff’s Office.
                                                                          12 employees were suspended and 3 resigned as a result of this
Former FS Accountant Sentenced for Embezzling                             investigation.
Over $1.4 Million                                                         NRCS Employee Pleads Guilty to Defrauding NRCS
In June 2011, a former FS accountant was sentenced in U.S.
                                                                          In June 2011, in U.S. District Court, Southern District of
District Court, Central District of California, to 4 years’
                                                                          Mississippi, an NRCS employee entered a guilty plea for
incarceration, followed by 3 years’ supervised release, for mail
                                                                          submitting false claims to the very agency that employed him.
fraud, and was ordered to pay restitution of $1.1 million.
                                                                          Our investigation found that the employee had submitted a
These charges resulted from a year-end review that disclosed
                                                                          $22,000 invoice in January 2008 for the construction of a pond
that more than $600,000 was missing from funds the agency
                                                                          on property he owned in Mississippi, even though he only
collects to provide a service to private vendors in one of the
                                                                          paid the contractor $15,000 for the pond. Based on this false
national forests in California. OIG’s investigation revealed
                                                                          invoice, NRCS authorized a cost-share payment of $10,000.
that an accountant who had worked for FS had embezzled
                                                                          Additionally, the NRCS employee obstructed the investigation
approximately $1.4 million by redirecting funds from multiple
                                                                          by bribing the contractor who built the pond to provide false
private vendor accounts to a corporation that she and her
                                                                          information to investigators. In September 2011, the employee
husband owned. The fraud scheme involved cutting and
                                                                          was sentenced to 24 months’ probation, 6 months’ home
pasting language from legitimate expired agreements into
                                                                          confinement, and was ordered to pay more than $8,000 in fines
fraudulent agreements and refund request letters, and then
                                                                          and restitution. He retired from his position in June 2011.
directing Treasury checks to be sent to her corporation’s address.
During the investigation, OIG and the Secret Service seized               Rural Development Housing Assistant Diverted
more than $339,000 from her bank account.                                 Agency Funds for Her Own Use
USDA Employees’ Discount Drug Program at Iowa                             After receiving an allegation that a Rural Development housing
Labs Results in One Conviction, Other Disciplinary                        assistant in Wisconsin was diverting agency funds to pay
Actions                                                                   her personal real estate taxes, OIG investigated and found
                                                                          that the housing assistant had embezzled $5,162 from the
As reported in the SARC, 2nd Half of FY 2009, we conducted
                                                                          Rural Development loan cost fund by directing at least two
an investigation that disclosed that USDA veterinarians and
                                                                          payments to be issued to pay her county tax bill. In July 2011,
employees located at APHIS laboratory facilities in Iowa
                                                                          the woman pled guilty to felony theft in U.S. District Court,
ordered prescription drugs from veterinary supply companies
                                                                          Western District of Wisconsin. She was sentenced to 90 days
for USDA lab employees’ private use, beginning in the
                                                                          of house arrest, followed by 24 months’ probation, and was
late 1960s. The employees involved used many of these
                                                                          ordered to pay $2,433 in restitution.
prescription drugs to treat themselves or family members for
various conditions and illnesses. Approximately 67 of the                 FSIS Inspector Fired for Accepting Gifts from Those
drugs were for human use and normally required a physician’s              He Was Inspecting
prescription before they could be dispensed.                              In June 2011, an FSIS inspector in North Dakota was fired
                                                                          from his position for accepting gifts from those he was
                                                                          responsible for inspecting. As part of his official duties,




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                   Goal 3




this employee inspected meat that was entering the United                     procedures, and did not publish its rationale for awarding a
States from Canada. During our investigation, the employee                    sole-source contract on FedBizOpps.gov. Accordingly, we
admitted that he regularly accepted turkey, bacon, and ham                    recommended that ARS issue and implement a formalized
from a crew that was subcontracted by USDA. This crew                         acquisition planning process that would include the
unloaded the meat and provided the inspector with “gifts” for                 appropriate steps such as following legal review procedures
                                                                              and reporting contract award requirements. OIG continues
his work.
                                                                              to work with the agency to resolve this recommendation.
                                                                              (Audit Report 02703-0003-HQ, Agricultural Research
RECOVERY ACT REVIEWS                                                          Service General Procurement Oversight Audit of Beltsville’s
                                                                              Agricultural Research Service’s National Agricultural Library
FNS Needs To Ensure the Accuracy of Reported
                                                                              Bricks Repair Contract Awarded to Vigil Contracting, Inc.)
Recovery Act Information
                                                                        σσ    In the Georgia contract, we found that, although ARS
The Recovery Act authorized FNS to award $100 million                         developed new Recovery Act recipient reporting procedures,
to help State agencies establish, improve, and administer                     it needed to improve how it reported which recipients were
management information systems for WIC. FNS adhered                           receiving Recovery Act funds. We also noted that ARS
to the Recovery Act and related OMB guidance in awarding                      did not document how it planned its acquisitions, or other
grant funds to this program and used funds for their intended                 elements of the contract. ARS officials agreed that they
purpose; however, one of the five WIC State agencies tested did               needed to correct these aspects of its contracting process
not submit proper documentation to FederalReporting.gov and                   and have taken the appropriate corrective action. (Audit
two of the five State agencies did not have a process in place                Report 02703-0004-HQ, Agricultural Research Service
to ensure the accuracy of the number of jobs they reported as                 General Procurement Oversight Audit of Southeast Poultry
                                                                              Research Laboratory, Replacement of Critical Mechanical
created. We recommended that FNS develop and implement
                                                                              Systems Serving Buildings 1, 4, and 34 Contract Awarded
an effective process to verify that its reports related to Recovery
                                                                              to Peachtree Mechanical, Inc.)
Act expenditures are accurate and supported by documentation.
FNS concurred with our recommendations, and all corrective              σσ    In the Massachusetts contract, we found that ARS’ Facilities
                                                                              Division delayed the publication of a contract modification
actions have been completed. (Audit Report 27703-0001-IT,
                                                                              on FedBizOpps.gov and did not include the modification
American Recovery and Reinvestment Act Spending for Food
                                                                              price in the post-award notice. ARS concurred with our
and Nutrition Service Special Supplemental Nutrition Program
                                                                              recommendations and has implemented corrective action.
for Women, Infants, and Children Management Information                       OIG also noted that ARS was assessed a late payment fee
Systems)                                                                      due to a prompt payment issue. Because we noted that this
ARS Needs To Improve Its Processes for Contracting                            issue was due to the transition from one accounting system
                                                                              to another and subsequent invoices were paid in a timely
With Private Companies for Maintenance
                                                                              manner, we did not make a recommendation on this issue.
The Recovery Act provided ARS with $176 million to perform                    (Audit Report 02703-0005-HQ, Agricultural Research
critical maintenance of buildings and facilities that had been                Service Procurement Oversight Audit of Architect-Engineer
deferred over a number of years, including buildings at the                   Services Contract Awarded by Agricultural Research Service
Jean Mayer Human Nutrition Research Center for Aging,                         to Delta Engineers and Architects, P.C.)
located in Boston, Massachusetts; the Southeast Poultry                 σσ    Also in Massachusetts, OIG found that ARS did not
Research Laboratory in Athens, Georgia; and the National                      document how it planned its acquisitions, did not request a
Agricultural Library in Beltsville, Maryland. In order to                     legal review of its solicitation process, and did not properly
ensure that ARS met the high standards of accountability and                  publicize the rationale for awarding the contract on a sole-
transparency required by the Recovery Act, OIG contracted                     source, non-competitive basis. OIG also noted that ARS
                                                                              was assessed a late payment fee due to a prompt payment
with a commercial firm to review how ARS administered the
                                                                              issue. Since OIG had already reported these issues to
maintenance contracts it undertook with private companies.
                                                                              ARS, we made no additional recommendations. (Audit
σσ    In the Maryland contract, we found that ARS did not                     Report 02703-0006-HQ, Procurement Oversight Audit of
      have a formal, structured, and clearly communicated                     Construction Contract Awarded by Agricultural Research
      acquisition planning process, did not perform legal review              Service to Veterans Construction, LLC)




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half            19
                                                                   Goal 3




 GOVERNMENT-WIDE ACTIVITIES—GOAL 3                                          σσ   Financial Statement Audit Network (FSAN) Workgroup.
                                                                                 OIG auditors are members of the FSAN workgroup
 Participation on Committees, Working Groups,                                    which consists of auditors from numerous Federal
 and Task Forces                                                                 agencies. FSAN’s main purpose is to share ideas,
                                                                                 knowledge, and experience concerning Federal
 σσ    Financial Fraud Enforcement Task Force (formerly
                                                                                 financial statement audits. In conjunction with
       National Procurement Fraud Task Force). OIG
                                                                                 FSAN, OIG hosts an annual financial statement audit
       is a member of this task force, formed by the
                                                                                 conference.
       U.S. Department of Justice in October 2006 as a
       partnership among Federal agencies charged with                      σσ   Intra-Departmental Coordinating Committee on
       investigating and prosecuting Government contracting                      International Affairs. OIG auditors continue to serve
       and grant illegalities. The purpose of the task force                     on this committee. Headed by FAS, part of the
       has been expanded to include a wider variety of                           purpose of the committee, which includes most USDA
       financial crimes, from securities fraud to identity                       agencies, is to coordinate international activities.
       theft crimes. The task force is working to better                         Some of the committee’s issues include USDA’s role
       allocate resources, improve coordination in financial                     in implementing the President’s national export
       fraud cases, and accelerate their investigation and                       initiative and the Department’s global market strategy;
       prosecution. OIG investigations field offices in all                      reconstruction in Haiti, Pakistan, and Afghanistan;
       OIG regions participate in procurement fraud task                         and international food security and assistance. Our
       forces initiated by the local U.S. Attorney’s Offices. As                 comments on a draft of the Department’s global
       one example of procurement fraud work being done                          market strategy stressed the need for performance
       in the field, OIG and other investigative agencies                        measures and milestones.
       in the Dallas/Fort Worth area are cooperating on                     σσ   Afghanistan Country Team. As part of our committee
       procurement fraud investigations under the guidance                       involvement, OIG also attends the Afghanistan
       of the Affirmative Civil Enforcement Division of the                      country team meetings, during which we learned that
       U.S. Attorney’s Office, Northern District of Texas, by                    the Department was receiving funds from the United
       sharing information on activities, cases, techniques,                     States Agency for International Development (USAID)
       and current trends. The Counsel to the IG participates                    under the Foreign Assistance Act to help reconstruction
       as a member of the task force’s legislation committee.                    and development. Section 632(a) of the Act gives
 σσ    The FBI’s Heart of America Regional Computer Forensics                    audit and fiduciary responsibilities to USDA-OIG,
       Laboratory. OIG’s National Computer Forensics                             and so we continue to work with the Department and
       Division currently details one examiner to the FBI’s                      USAID to ensure accountability and oversight for
       Heart of America Regional Computer Forensics                              grants and agreements that use these funds.
       Laboratory in Kansas City, Missouri. Our analyst                     σσ   Interagency Suspension and Debarment Committee. OIG
       works with the laboratory and has helped us obtain                        continues to serve on this committee, which works
       direct access to regional laboratories, training, samples                 to advance the use of suspension and debarment as a
       of applicable policies and procedures, and, when                          Federal enforcement option.
       needed, FBI assistance for OIG computer forensic work.               σσ   Acreage/Crop Reporting Streamlining Initiative. OIG
 σσ    The FBI’s Public Corruption Working Group. An OIG                         continues to participate in this project. The goal of
       agent is a member of this relatively new group, which                     this Department-wide initiative is “to have a common
       is focused on combating corruption by Government                          USDA framework for producer commodity reporting
       officials and employees. Other member agencies                            in support of USDA programs.” The objectives are to
       include the U.S. Department of Housing and Urban                          (1) develop data standards for collection, reporting,
       Development-OIG, the Mississippi Attorney General’s                       and maintenance of USDA program data and a multi-
       Office, and Internal Affairs of the Jackson, Mississippi,                 agency governance process; (2) publish the standards to
       Police Department.                                                        support their adoption in agriculture service providers’




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                              Goal 3




     systems; (3) establish a process to share and leverage            σσ    USDA’s purchase and travel charge card usage
     data across agency systems; and (4) provide producers                   compliance (USDA),
     the option to report directly to a consolidated USDA              σσ    USDA’s security over domain name system servers
     reporting site.                                                         (OCIO),
                                                                       σσ    OCIO’s FY 2010 funding (OCIO),
ONGOING REVIEWS FOR GOAL 3
                                                                       σσ    FY 2011 Federal Information System Management Act
σσ   Section 632(a) funds provided by USAID to USDA                          (OCIO), and
     (FAS, APHIS, ARS, NIFA),
                                                                       σσ    distribution of settlement funds for discrimination
σσ   international trade policy and procedures (FAS, FSIS,                   litigation (Office of the Assistant Secretary for Civil
     ARS, APHIS, FS, AMS),                                                   Rights).
σσ   private voluntary organization grant fund
     accountability (FAS),                                             ONGOING REVIEWS FOR GOAL 3
σσ   Departmental management and oversight of the April                USING RECOVERY ACT FUNDS
     2010 oil spill—Deepwater Horizon (NRCS),
                                                                       σσ    Emergency Food Assistance Program (FNS),
σσ   review of NRCS’ oversight and compliance activities
                                                                       σσ    controls over water and waste loans and grants (RUS),
     (NRCS),
                                                                       σσ    NSLP equipment grants (FNS),
σσ   Department and stand-alone agencies’ financial
     statements for FY 2011 (OCFO),                                    σσ    general procurement oversight audits (ARS), and

σσ   oversight of federally authorized research and                    σσ    broadband initiatives (RUS).
     promotion board activities, including the Beef                    OIG’s annual plan for future audit and investigative work
     Research and Promotion Board (AMS),                               under this goal may be found online at http://www.usda.gov/
σσ   followup on FS working capital fund audits (FS),                  oig/webdocs/2012ABPFinal.pdf.
σσ   FS acquisition of IT software and hardware (FS),
σσ   International Technology Service’s selected controls
     review (OCIO),




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half               21
                                                                     Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                               FS Needs To Ensure That the Special Use Program
natural resources                                                         Has Adequate Resources To Accomplish Its Mission
                                                                          Entrusted with managing over 193 million acres of forests and
OIG’s audits and investigations focus on USDA’s management
                                                                          grasslands within the National Forest System, FS is responsible
and stewardship of natural resources, including soil, water, and
                                                                          for processing thousands of applications to use Federal lands
recreational settings. Our work in this area is vital because
                                                                          for a wide variety of purposes, including oil and gas pipelines,
USDA is entrusted with hundreds of billions of dollars in
                                                                          electrical transmission facilities, setting up communication
fixed public assets, such as 193 million acres of national forests
                                                                          relays, bottling spring water, and outfitting and guiding
and grasslands. USDA also provides scientific and technical
                                                                          backcountry and river trips. Our review of the Special Use
knowledge for enhancing and protecting the economic
                                                                          Program found a number of limitations with how FS currently
productivity and environmental quality of the estimated 1.5
                                                                          operates the program, limitations that restrict the program’s
billion acres of forests and associated rangelands in the United
                                                                          effectiveness. With the exception of fees for commercial
States.
                                                                          filming, FS cannot keep the fees it charges for land use
In the second half of FY 2011, we devoted 5 percent of our                authorizations even though the agency needs funds to better
total direct resources to Goal 4, with 100 percent of these               operate the program. In 2008, FS collected $13.4 million for
resources assigned to critical/high-impact work. A total of               land use authorizations that it submitted to the Department
72 percent of our audit recommendations under Goal 4                      of the Treasury and was able to retain only $400,000. With
resulted in management decision within 1 year: no closed                  respect to recreation use authorizations, FS sent $57.1 million
investigative cases resulted in criminal, civil, or administrative        to Treasury and was able to retain $10.4 million in fees for
action. OIG issued three audit reports and four Recovery                  outfitting and guiding and recreation events. At its current
Act fast reports under Goal 4 during this reporting period.               level of funding, the Special Use Program was forced to turn
OIG’s investigations under Goal 4 yielded no indictments,                 away applicants due to a lack of resources.
one conviction, and $82,268 in monetary results during this
                                                                          Without the funds it needs to perform National Environmental
reporting period.
                                                                          Policy Act reviews and communication site management
                                                                          plans for communication relays, FS has a backlog of overdue
                                                                          work, including more than 3,500 expired authorizations,
 Management Challenges Addressed UNDER GOAL 4                             106 uninspected special use land authorizations, and
 σσ     Better Forest Service Management and Community                    967 communication sites without current communication
        Action Needed To Improve Forest Health and Reduce                 site management plans (these plans are needed to make sure
        Firefighting Costs                                                communication relays do not interfere with each other).
 σσ     Implementation of Strong, Integrated, Internal Control            Overall, FS must take steps to secure for the Special Use
        Systems Still Needed (also under Goals 1, 2, and 3)               Program the resources needed to accomplish the program’s
 σσ     Implementation of the Recovery Act (also under Goals              mission. One of the keys to correcting these resource shortfalls
        2 and 3)                                                          is seeking authority for FS to keep the fees the program
                                                                          collects—those fees can then be used to provide additional
                                                                          resources for the program. FS officials generally agreed with
                                                                          our recommendations to seek additional authority to keep the
                                                                          fees and hire the personnel needed to fully operate the program.
                                                                          (Audit Report 08601-0055-SF, Forest Service Administration
                                                                          of Special Uses Program)




22      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                     Goal 4




FS Needs To Improve Controls Over the Forest Legacy                       high unemployment. Based on our review of FS’ internal
Program                                                                   controls for spending these funds, we found that FS funded
                                                                          225 of 705 work projects (32 percent) in geographic areas that
FS’ Forest Legacy Program supports States’ efforts to protect
                                                                          agency officials had classified as not significantly impacted
environmentally important forests by assisting States in
                                                                          by the recession in terms of unemployment—$280 million
purchasing conservation easements or lands. Since the
                                                                          of Recovery Act funding went to these areas. Additionally,
inception of the program in 1990, FS has provided over
                                                                          in this report, we responded to 17 instances of suspicious
$595 million to conserve private forests and has protected
                                                                          activity involving FS contracts that were referred to OIG by
nearly 2 million acres in 43 States and territories. Although FS
                                                                          the Recovery Board. While we did not find any criminal
made efforts to improve its management and oversight of the
                                                                          instances of fraud, waste, or abuse, we did find numerous
Forest Legacy Program after a 2002 review by the U.S. House
                                                                          instances where FS officials had not complied with various
of Representatives Committee on Appropriations, OIG found
                                                                          provisions of the Recovery Act, such as not including required
that FS needs to take additional steps to improve the program
                                                                          clauses in contracts or not reporting aspects of a contract on the
by strengthening oversight over how easements are appraised,
                                                                          FedBizOpps.gov web site.
by ensuring that States monitor the easements and verify that
the landowner abides by the terms of the agreements, and by               In response to the Recovery Board’s referrals, OIG sent a letter
standardizing conservation easement agreements. FS generally              to the Recovery Board notifying it of the issues we found
agreed with our recommendations and is taking appropriate                 related to its referrals. Additionally, we issued a roll up report
corrective action. (Audit Report 08601-0056-SF, Forest Service            summarizing the issues we presented to FS officials and the
Forest Legacy Program)                                                    Recovery Board in 12 fast reports. FS officials generally agreed
                                                                          with the recommendations we made to ensure that Recovery
Texas Irrigation Companies Sentenced on Scheme To                         Act requirements are met. (Audit Report 08703-0001-Hy,
Defraud the NRCS Environmental Quality Incentives                         Oversight and Control of Forest Service American Recovery
Program                                                                   and Reinvestment Act Activities)
The U.S. District Court, Northern District of Texas, sentenced
                                                                          Recovery Act Wildland Fire Management Grants Were
three west Texas irrigation companies to 5 years’ probation
                                                                          Not Used To Promote Job Growth
and ordered them each to pay a $400 fine and $50,000
in restitution, after they pled guilty to submitting inflated             Of the $1.2 billion the Recovery Act provided FS to implement
invoices to obtain excessive cost-share reimbursements through            projects that directly accomplish the mission of sustaining the
the NRCS Environmental Quality Incentives Program. In                     Nation’s forests and grasslands, creating jobs, and promoting
addition, one corporate officer agreed to enter into the Pre-trial        U.S. economic recovery, $200 million was slated for wildland
Diversion Program administered by the U.S Attorney’s Office,              fire management activities on State, county, and private
Northern District of Texas; he subsequently paid a $15,000                lands. OIG reviewed 5 of the 152 non-Federal wildland fire
fine and was debarred from all NRCS programs for 60 months.               management Recovery Act-funded projects—consisting of 7
OIG worked this investigation jointly with the IRS-Criminal               grants, valued at $23.9 million—to determine whether the
Investigations Division.                                                  projects were being timely completed in compliance with
                                                                          Recovery Act requirements. We found that three of the grant
RECOVERY ACT REVIEWS                                                      recipients were not effectively using the grant funds they
                                                                          received to create or sustain the most jobs possible, as intended
FS Funded Recovery Act Projects Worth More Than                           by the Recovery Act. Although the grants funded work that
$280 Million in Areas Not Significantly Affected by the                   met natural resource objectives, the grant recipients continued
Recession                                                                 to conduct the same amount of work they were already
As part of the Recovery Act, Congress provided FS with                    performing before they received the Recovery Act funds. In
$1.2 billion in Recovery Act funding; generally, these funds              other words, little additional economic stimulus resulted from
were to be used to promote economic recovery in areas of                  these grants. We recommended that FS take steps to ensure




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half          23
                                                                Goal 4




that grant recipients expend their funds quickly and in full         renovating facilities. Using these funds, from March through
compliance with the Recovery Act. FS officials agreed with           September 2009, FS approved 176 facility projects nationwide.
our recommendations. (Fast Report Audit 08703-0005-SF                Our review of 14 of these facility projects found that FS
(5), Grant Recipients Not Meeting Economic Stimulus Intent           contractors at three of these projects violated the requirement
of Recovery Act – The Recovery Act - Forest Service (FS)             that they pay their workers the prevailing wage. The prevailing
Hazardous Fuels Reduction and Ecosystem Restoration on               wage is the combination of the basic hourly rate and fringe
Non-Federal Lands)                                                   benefits required to be paid to various classes of laborers and
                                                                     mechanics employed on construction projects in a given area.
FS May Need To Recover Up to $28 Million in
                                                                     These violations occurred because FS contracting officials did
Unsupported Recovery Act Salary Expenses
                                                                     not review the contractors’ payrolls. Due this oversight, eight
Of the $200 million the Recovery Act provided FS to                  laborers were underpaid by nearly half, for a total of $6,219.
implement wildland fire management activities, we reviewed
                                                                     We raised this issue with FS officials and they agreed that the
8 of the 152 projects—consisting of 17 grants valued at
                                                                     eight laborers who were underpaid should be recompensed
$44 million—to determine whether FS and subsequent
                                                                     for their work. FS took appropriate steps to correct this
recipients of the Recovery Act funds complied with laws and
                                                                     problem, and also to ensure that its contracting officials would
regulations pertaining to Recovery Act funding. For
                                                                     not repeat this mistake. (Fast Report Audit 08703-0002-SF
6 of the 17 Recovery Act grants reviewed, we found that the
                                                                     (4), The Recovery Act – Forest Service Facility Improvement,
grant recipients did not comply with the salary allocation
                                                                     Maintenance and Rehabilitation (4) – Davis Bacon Act
requirements outlined by OMB. The grant recipients did
                                                                     Violations at the Coronado National Forest, Arizona;
not have financial accounting processes in place to properly
                                                                     Clearwater National Forest, Idaho; and Northern Research
allocate and support the salary costs they charged to both their
                                                                     Station Laboratory, Wisconsin)
Recovery Act and non-Recovery-Act-funded grants and instead
either used predetermined percentages or other unallowable           FS Needs To Ensure Payments Are Based on Actual
methodologies to allocate their salary expenses to the grants.       Costs
Due to FS’ lack of oversight, grant recipients were reimbursed
                                                                     Of the $650 million the Recovery Act provided for FS’
at least $389,747 in unsupported salary costs for five of the six
                                                                     Capital Improvement and Maintenance Program, FS allocated
grants reviewed. The $389,747 extrapolates to over $28 million
                                                                     $100 million for trail maintenance and decommissioning, and
of possible unsupported salary costs charged or projected to
                                                                     approved 90 trail projects for funding. Our audit of
be charged to Recovery Act grants. We recommended that
                                                                     20 statistically sampled projects included a document review
FS take steps to recover these funds. FS officials agreed to
                                                                     of contracts and agreements between FS and partnering
conduct a review of the grant recipients and address any issues
                                                                     organizations. Our review revealed that one national forest
identified in accordance with OMB circulars and Federal cost
                                                                     in the Pacific Southwest Region incorrectly reimbursed a
accounting principles. FS expects to complete these actions
                                                                     partnering agency for an additional $64,096 in labor costs.
by December 31, 2011. (Fast Report Audit 08703-0005-SF
                                                                     This occurred because personnel relied on an incorrect
(6), Salaries Totaling Almost $400,000 Charged to Recovery
                                                                     past practice of paying an agreed-upon estimated rate. We
Act Grants Reviewed Were Unsupported - The Recovery Act -
                                                                     recommended FS recover the identified overpayment, and issue
Forest Service (FS) Hazardous Fuels Reduction and Ecosystem
                                                                     notice to other regions to ensure reimbursements are based on
Restoration on Non-Federal Lands)
                                                                     actual costs and not on an estimated rate. When we alerted FS
FS Needs To Ensure that Workers at its Capital                       to this issue, FS responded by generally concurring with our
Improvement Projects Are Paid the Prevailing Rate                    recommendations. (Fast Report 08703-0004-SF (3), Los Padres
                                                                     National Forest, Costs Overpaid to California Conservation
The Recovery Act included $650 million for FS’ Capital
                                                                     Corps—Recovery Act—Forest Service Trail Maintenance and
Improvement and Maintenance Program, of which
                                                                     Decommissioning)
$246 million was approved for improving, maintaining, and




24     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                Goal 4




GOVERNMENT-WIDE ACTIVITIES—GOAL 4                                        ONGOING REVIEWS FOR GOAL 4
Participation on Committees, Working Groups,                             σσ    evaluating FS’ processes to obtain and grant rights of
and Task Forces                                                                way and easements (FS),
                                                                         σσ    management of oil and gas resources on National
σσ   Environmental Crimes Working Groups. OIG agents
                                                                               Forest System land (FS),
     continue to participate in working groups in the
     District of New Hampshire, the Eastern District                     σσ    nationwide review of NRCS’ controls over the Farm
     of North Carolina, and the Western District of                            and Ranch Lands Protection Program (NRCS), and
     Washington, which were convened by U.S. Attorney’s                  σσ    review of conservation compliance of Conservation
     Offices, to improve cooperation and coordination                          Security or Stewardship Program participants (NRCS).
     among local, State, and Federal law enforcement
     agencies enforcing environmental laws, as well as                   ONGOING REVIEWS FOR GOAL 4
     to exchange information and provide prosecutorial
                                                                         USING RECOVERY ACT FUNDS
     support and training opportunities. An OIG agent
     also continues to participate in an environmental and               σσ    trail maintenance and decommissioning (FS),
     natural resources law enforcement working group in                  σσ    facility improvement, maintenance, and renovation
     Arizona, which has similar goals of improving training                    (FS),
     and coordination for investigators working on natural
                                                                         σσ    road maintenance and decommissioning (FS),
     resources cases.
                                                                         σσ    abandoned mine remediation (FS),
σσ   San Bernardino Rural Crimes Task Force. OIG is one of
     several law enforcement agencies participating on a task            σσ    oversight and control of FS activities (FS),
     force to combat crimes in rural areas in southeastern               σσ    hazardous fuels reduction and ecosystem restoration on
     California. Other participating agencies include                          non-Federal lands (FS), and
     the San Bernardino County, California, Sheriff’s                    σσ    wood-to-energy projects (biomass) (FS).
     Department, the California Department of Food
     and Agriculture, Fish and Game, APHIS, FSIS, and                    OIG’s annual plan for future audit and investigative work
     environmental crimes prosecutors from San Bernardino                under this goal may be found online at http://www.usda.gov/
     and Riverside Counties, California.                                 oig/webdocs/2012ABPFinal.pdf.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half              25
                                                              Impact of the OIG




Gauging the Impact of OIG
Measuring Progress Against the OIG Strategic Plan                        For audits we show:
The first way we gauged our impact was by measuring the                  σσ       reports issued,
extent to which our work focused on the key issues under our             σσ       management decisions made (number of reports and
FY 2010 goals. These are:                                                         recommendations),

1.	   Strengthen USDA’s ability to implement safety and security         σσ       total dollar impact of management-decided reports
      measures to protect the public health as well as agricultural               (questioned costs and funds to be put to better use),
      and Departmental resources.                                        σσ       program improvement recommendations, and
2.	   Reduce program vulnerabilities and strengthen program              σσ       audits without management decision.
      integrity in the delivery of benefits to individuals.
3.	   Support USDA in implementing its management                        For investigations we show:
      improvement initiatives.
                                                                         σσ       indictments,
4.	   Increase the efficiency and effectiveness with which USDA
                                                                         σσ       convictions,
      manages and exercises stewardship over natural resources.
                                                                         σσ       arrests,
Impact of OIG Audit and Investigative Work on                            σσ       total dollar impact (recoveries, restitutions, fines, asset
Department Programs                                                               forfeiture),
                                                                         σσ       administrative sanctions, and
A second way we gauge our impact is by tracking the
                                                                         σσ       OIG Hotline complaints.
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.




                               PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                       FY 2011         FY 2011
                                                                                       FY 2010        FY 2011
 Performance Measures                                                                                                  2nd Half        Full Year
                                                                                        Actual         Target
                                                                                                                        Actual          Actual

 OIG direct resources dedicated to critical-risk and high-impact activities.            91.8%           90%             97.9%           97.2%


 Audit recommendations where management decisions are achieved within
                                                                                        90.2%           90%             91.8%           90.1%
 1 year.

 Audits initiated where the findings and recommendations are presented to
                                                                                        100%            85%             100%             100%
 the auditee within established or agreed-to timeframes.
 Closed investigations that resulted in a referral for action to the
 Department of Justice, State or local law enforcement officials, or relevant           84.8%           70%             95.3%           82.5%
 administrative authority.
 Closed investigations that resulted in an indictment, conviction, civil suit
                                                                                        72.8%           65%             68.4%           70.4%
 or settlement, judgment, administrative action, or monetary result.




26     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                Impact of the OIG




                         RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                              FY 2011      FY 2011
                                                                                      FY 2010     FY 2011
 Performance Measures                                                                                         2nd Half     Full Year
                                                                                       Actual      Target
                                                                                                               Actual       Actual
 Notify USDA agency managers of significant audit findings related to
 Recovery Act programs along with recommendations for corrective action               83.3%        85%         85.7%        86.7%
 within 30 days after identification.
 Respond to Recovery Board-sponsored requests and projects within
                                                                                       100%        85%         100%         100%
 established schedules or agreed-upon timeframes.

 An investigative determination to accept or decline an allegation of
                                                                                       100%        100%        100%         100%
 whistleblower retaliation is made within 180 days of receipt.

 Investigations staff will participate in 10 outreach/training meetings each
                                                                                       135%        80%         110%          95%
 quarter on Recovery Act work.

 Whistleblower retaliation allegations are investigated and reported within
                                                                                       100%        75%            N/A        N/A
 180 days of receipt.*

 Timely and accurate monthly Recovery Act funds reports submitted to the
                                                                                       N/A         88%         100%         100%
 Recovery Board.

*No whistle blower retaliation allegations were investigated.




Recognition of OIG Employees by the Secretary and IG Community
SECRETARY’S HONOR AWARD                                                    COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY
                                                                           AND EFFICIENCY (CIGIE) AWARDS
Personal and Professional Excellence
Stanley J. Wojtkonski
                                                                           Gaston L. Gianni, Jr. Better Government Award
Investigations                                                             American Grocers Investigations Team
                                                                           Investigations
Animal Welfare Team
Audit
                                                                           Award for Individual Accomplishment
GovTrip Improvement Project Team
                                                                           Rickey Yopp
Donald Samuel
                                                                           Investigations
The President’s Volunteer Service Award
                                                                           Awards for Excellence
Janet White
                                                                           Recovery Act Data Quality Audit Team
Investigations
                                                                           Audit
                                                                           National Computer Forensics Division
                                                                           Investigations




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half    27
                                                                       Impact of the OIG




                                   SUMMARY OF AUDIT ACTIVITIES—APRIL 2011-SEPTEMBER 2011
                                                                Audits Performed by OIG                                                                     20
                                                                Evaluations Performed by OIG                                                                 0
Reports Issued: 24
                                                                Audits Performed Under the Single Audit Act                                                  0
                                                                Audits Performed by Others                                                                   4
                                                                Number of Reports                                                                           19
Management Decisions Made
                                                                Number of Recommendations                                                              171
                                                                Total Questioned/Unsupported Costs                                             $4,169.8a, b
Total Dollar Impact (Millions) of Management-                       -Recommended for Recovery                                                          $1.9
Decided Reports: $4,178.4                                           -Not Recommended for Recovery                                                $4,167.9
                                                                Funds to Be Put to Better Use                                                          $8.6
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as auditees implement the agreed-upon corrective action plan and seek recovery of amounts
    recorded as debts due the Department.




                                SUMMARY OF FAST REPORTS ISSUED—APRIL 2011-SEPTEMBER 2011
Ongoing OIG Assignments Containing                              Fast Reports Issued                                                                          9
Fast Reports Issued to the Agency: 8a                           Number of Recommendations Made                                                              27
                                                                Total Questioned/Unsupported Costs                                                  $201.5
Total Dollar Findings (Millions) of                                 -Recommended for Recovery                                                        $28.5
Fast Reports Issued: $201.5b                                        -Not Recommended for Recovery                                                   $173.0
                                                                Funds to Be Put to Better Use                                                               $0
a
    Fast reports are quick turnaround reports intended to alert management to immediate issues during the course of an ongoing audit assignment.
b
    Monetary findings identified in fast reports are included in Table 3, Summary of Audit Activities. (Final report could occur in future SARC reporting
    periods.)




28       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                      Impact of the OIG




                             SUMMARY OF INVESTIGATIVE ACTIVITIES—APRIL 2011-SEPTEMBER 2011
                                                                 Cases Opened                                                            265
Reports Issued: 177
                                                                 Cases Referred for Prosecution                                           49
                                                                 Indictments    a
                                                                                                                                         363
                                                                 Convictions                                                             200
Impact of Investigations
                                                                 Searches                                                                181
                                                                 Arrests                                                                 831
                                                                 Recoveries/Collections         b
                                                                                                                                         $5.7
                                                                 Restitutions   c
                                                                                                                                        $41.2
                                                                 Finesd                                                                  $2.5
Total Dollar Impact (Millions): $65.8                            Asset Forfeitures      e
                                                                                                                                         $1.6
                                                                 Claims Established         f
                                                                                                                                        $14.5
                                                                 Cost Avoidance     g
                                                                                                                                         $0.2
                                                                 Administrative Penaltiesh                                               $0.1
                                                                 Employees                                                                23
Administrative Sanctions: 131
                                                                 Businesses/Persons                                                      108
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 200 convictions do not necessarily relate to the 363 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Asset forfeitures are judicial or administrative results.
f
    Claims established are agency demands for repayment of USDA benefits.
g
    Consists of loans or benefits not granted as the result of an OIG investigation.
h
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half     29
                                                        Impact of the OIG




FULL FY 2011 RESULTS IN KEY CATEGORIES—OCTOBER 2010-SEPTEMBER 2011
                                             SUMMARY OF AUDIT ACTIVITIES
Reports Issued:
     Number of Reports                                                             45
     Number of Recommendations                                                    267
Management Decisions Made:
     Number of Reports                                                             40
     Number of Recommendations                                                    304
Total Dollar Impact (Millions) of Management-Decided Reports                  $4,189.5
     Questioned/Unsupported Costs                                             $4,174.8
     Funds to Be Put to Better Use                                              $14.7




                                       SUMMARY OF INVESTIGATIONS ACTIVITIES
Reports Issued                                                                    359
Impact of Investigations
     Indictments                                                                  562
     Convictions                                                                  449
     Arrests                                                                    1,347
Total Dollar Impact (Millions)                                                  $113.6
Administrative Sanctions                                                          265




30    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                             Impact of the OIG




                                INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                           FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                                                                                      UNSUPPORTEDa
                           CATEGORY                         NUMBER         QUESTIONED COSTS AND LOANS
                                                                                                                     COSTS AND LOANS
Reports for which no management decision had
                                                              10                               $247,801,096                $1,039,135
been made by April 1, 2011b
Final reports which were issued during the
                                                               6                              $4,212,200,882                       $0
reporting period
Total reports with questioned costs and loans                 16                              $4,460,001,978               $1,039,135
                                                                       Recommended for                                             $0
                                                                                                   $1,871,743
                                                                       recovery
Of the 16 reports, those for which management
                                                               6       Not recommended                                             $0
decision was made during the reporting period                                                 $4,167,945,769
                                                                       for recovery
                                                                       Costs not disallowed          $513,470                      $0
Of the 16 reports, those for which no management
decision was made by the end of this reporting                10                               $289,676,181                $1,039,135
period
Total current reports for which no management
                                                               8                                  $245,551,740             $1,039,135
decision was made within 6 months of issuanceb
a
    Unsupported values are included in questioned values.
b
    Carried over from previous reporting periods.




          INVENTORY OF FINAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                    FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                            CATEGORY                                      NUMBER                 DOLLAR VALUE
Reports for which no management decision had been made
                                                                                              2                            $3,942,594
by April 1, 2011a
Final reports which were issued during the reporting period                                   2                            $5,582,302
Total reports with recommendations that funds be put to better use                            4                             $9,524,896
                                                                                                        Disallowed costs   $8,628,130
Of the 4 reports, those for which management decision was made during the
                                                                                              2         Costs not
reporting period                                                                                                             $130,039
                                                                                                        disallowed
Of the 4 reports, those for which no management decision has been made by
                                                                                              2                              $766,727
the end of this reporting period
Total current reports for which no management decision was made within
                                                                                              1                              $571,992
6 months of issuancea
a
    Carried over from previous reporting periods.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half           31
                                                                Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                                 training so that its field personnel could make more accurate
                                                                                    eligibility determinations for Single Family Housing Loans.
A significant number of our audit recommendations carry no
                                                                           σσ       AMS agreed to strengthen its oversight of Country of Origin
monetary value per se, but their impact can be immeasurable                         Labeling, including improving its retailer review process,
in terms of safety, security, and public health. They can also                      enhancing its compliance procedures, and improving how it
contribute considerably toward economy, efficiency, and                             communicates with retailers.
effectiveness in USDA’s programs and operations. During
this reporting period, we issued 145 program improvement                   AUDIT AND INVESTIGATION PEER REVIEWS
recommendations, and management agreed to implement a
                                                                           σσ       During the current semiannual reporting period, there were
total of 150 that were issued this period or earlier. Examples of
                                                                                    no audit peer reviews of OIG’s audit organization. OIG
those issued this period (see the main text of this report for a
                                                                                    received a grade of pass on our most recent peer review
summary of the audits that prompted these recommendations)
                                                                                    report issued by the Housing and Urban Development-OIG
include the following:                                                              on September 30, 2009—this report contained no findings
σσ    APHIS agreed with our recommendations to develop a                            or recommendations.
      regulatory framework clearly defining its scope of coverage          σσ       During the current semiannual reporting period, there
      and regulatory requirements for genetically engineered                        were no peer reviews of OIG’s investigation organization.
      animals and plants, and the USDA agencies responsible                         Our most recent review was conducted in 2010 by the
      for research also agreed to strengthen their controls at their                Department of Homeland Security-OIG. The report, issued
      laboratories.                                                                 November 10, 2010, contained no recommendations, and
σσ    Rural Development agreed to develop more detailed                             determined that OIG is in compliance with the quality
      underwriting tools, improve guidance, and provide further                     standards established by CIGIE and the Attorney General.




32     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                         Impact of the OIG




AUDIT REPORTS
From April 1, 2011 through September 30, 2011, OIG issued 24 audit reports, including 4 performed by others. During this same
period, 9 fast reports were issued. The following is a summary of those audit products by agency:


                                                           AUDIT AND FAST REPORT TOTALS
 Total funds that can be put to better use                                                                                                      $5,582,302

 Total questioned costs and loansa,b                                                                                                       $4,413,722,453
 a
     Unsupported values of $28,457,475 are included in the questioned values.
 b
     Includes fast report monetary values of $201,521,571. (Final reports could occur in future SARC reporting periods.)




                SUMMARY OF AUDIT AND FAST REPORTS RELEASED FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                              AUDIT AND                                                                       FUNDS TO BE
                                                                                  QUESTIONED COSTS             UNSUPPORTED COSTS
                     AGENCY TYPE                            FAST REPORTS                                                                     PUT TO BETTER
                                                                                    AND LOANSa,c                   AND LOANS
                                                              RELEASED                                                                            USE
 SINGLE AGENCY AUDIT                                              28                $4,413,722,453                  $28,457,475                $5,582,302
 MULTIAGENCY AUDIT                                                  5
 SINGLE AGENCY EVALUATION                                           0
 MULTIAGENCY EVALUATION                                             0
 TOTAL COMPLETED UNDER
                                                                    0
 CONTRACTb
 ISSUED AUDITS COMPLETED
                                                                    0
 UNDER THE SINGLE AUDIT ACT
 a
     Unsupported values are included in the questioned values.
 b
     Audits performed by others.
 c
     Includes fast report monetary values of $201,521,572 for 9 fast reports issued during this period. Final report could occur in future SARC reporting
     periods.




                                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half                   33
                                                      Impact of the OIG




                     AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                                             QUESTIONED    UNSUPPORTED    FUNDS TO BE
 AUDIT TOTALS                       RELEASE
                 AUDIT NUMBER                            TITLE                COSTS AND     COSTS AND    PUT TO BETTER
  BY AGENCY                          DATE
                                                                                LOANS         LOANSa          USE
Agricultural                                   Implementation of
Marketing       01601-0004-Hy      08/18/11    Country of Origin                $296,400
Service: 1                                     Labeling
                                               Recovery Act General
                                               Procurement Oversight
                                               Audit of ARS National
                02703-0003-HQ      05/06/11
                                               Agricultural Library Veneer
                                               Repairs Contract Awarded
                                               to Vigil Contracting, Inc.
                                               Recovery Act General
                                               Procurement Oversight
                                               Audit of ARS Southeast
                02703-0004-HQ      07/01/11    Poultry Research
                                               Laboratory Repairs
Agricultural                                   Contract Awarded to
Research                                       Peachtree Mechanical, Inc.
Service: 4                                     Recovery Act General
                                               Procurement Oversight
                                               Audit of ARS Architectural
                02703-0005-HQ      09/30/11
                                               and Engineering Services
                                               Contract Awarded to Delta
                                               Engineers
                                               Recovery Act General
                                               Procurement Oversight
                                               Audit of ARS Facilities
                02703-0006-HQ      08/22/11
                                               Repairs Contract Awarded
                                               to Veteran Construction,
                                               LLC
Animal and                                     FAST REPORT:
Plant Health                                   Effectiveness of the
                33601-0012-Ch      04/07/11    Smuggling, Interdiction,
Inspection                                     and Trade Compliance
Service: 1                                     Unit
Farm Service                                   Farm Assistance Program
                03024-0001-11      06/21/11
Agency:1                                       Payments for FY 2010
                                               Recovery Act Spending for
                                               the Special Supplemental
                                               Nutrition Program for
                27703-0001-IT      08/22/11
                                               Women, Infants, and
Food and                                       Children Management
Nutrition                                      Information System
Service: 2                                     Controls Over
                                               Outsourcing of FNS
                27003-0001-Te      06/30/11    Supplemental Nutrition
                                               Assistance Program Call
                                               Centers



34    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                    Impact of the OIG




                     AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                                          QUESTIONED      UNSUPPORTED       FUNDS TO BE
 AUDIT TOTALS                    RELEASE
                  AUDIT NUMBER                         TITLE               COSTS AND       COSTS AND       PUT TO BETTER
  BY AGENCY                       DATE
                                                                             LOANS           LOANSa             USE
Food Safety
                                            FSIS In-Commerce
and Inspection   24601-0008-At   09/30/11
                                            Surveillance Activities
Service: 1
                                            FS Administration of
                 08601-0055-SF   06/16/11                                                                     $5,387,567
                                            Special Uses Program
                 08601-0056-SF   04/20/11   FS Legacy Program
                                            Oversight and Control of
                 08703-0001-Hy   09/30/11
                                            FS Recovery Act Activities
                                            FAST REPORT:
                                            Recovery Act—FS
                                            Facility Improvement,
                                            Maintenance and
                                            Rehabilitation: Davis
                 08703-0002-                Bacon Act Violations at
                                 04/14/11
                 SF(4)                      the Coronado National
                                            Forest, Arizona; Clearwater
                                            National Forest, Idaho;
                                            and Northern Research
                                            Station Laboratory,
                                            Wisconsin
                                            FAST REPORT: Los
                                            Padres National Forest,
                                            Costs Overpaid to
                 08703-0004-
                                 08/12/11   California Conservation            $64,096
                 SF(3)
Forest                                      Corps—Forest Service
Service: 7                                  Trail Maintenance and
                                            Decommissioning
                                            FAST REPORT: Grant
                                            Recipients Not Meeting
                                            Economic Stimulus Intent
                                            of Recovery Act – The
                 08703-0005-
                                 06/02/11   Recovery Act - Forest
                 SF(5)
                                            Service (FS) Hazardous
                                            Fuels Reduction and
                                            Ecosystem Restoration on
                                            Non-Federal Lands
                                            FAST REPORT: Salaries
                                            Totaling Almost $400,000
                                            Charged to Recovery
                                            Act Grants Reviewed
                 08703-0005-                Were Unsupported - The
                                 05/05/11                                  $28,457,475      $28,457,475
                 SF(6)                      Recovery Act - Forest
                                            Service (FS) Hazardous
                                            Fuels Reduction and
                                            Ecosystem Restoration on
                                            Non-Federal Lands



                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half   35
                                                      Impact of the OIG




                      AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                                            QUESTIONED    UNSUPPORTED    FUNDS TO BE
 AUDIT TOTALS                       RELEASE
                   AUDIT NUMBER                          TITLE               COSTS AND     COSTS AND    PUT TO BETTER
  BY AGENCY                          DATE
                                                                               LOANS         LOANSa          USE
                                               Calendar Year 2010
                                               Executive Order 13520
                  50024-0001-FM    07/15/11
                                               Reduction of Improper
                                               Payment Review
                                               USDA Security Over
                  50501-0001-IT    08/15/11    Wireless Hand-Held
                                               Devices
                                               FAST REPORT: Critical
Multiagency: 5    50501-0001-12    04/15/11    Domain Name System
                                               Servers
                                               National Agricultural
                                               Statistics Service
                  50601-0015-KC    08/01/11
                                               Establishment of Average
                                               Yields
                                               Controls Over Genetically
                  50601-0016-Te    05/31/11    Engineered Animal and
                                               Insect Research
                                               Controls Over the
                  10099-0003-Ch    09/14/11    Farm and Ranch Lands          $7,627,071
Natural                                        Protection Program
Resources                                      FAST REPORT: Grants
Conservation                                   and Locally Led Contracts
                  10703-0004-
Service: 2                         07/01/11    Do Not Include All
                  KC(1)
                                               Required Recovery Act
                                               Awards Terms
                                               Agreed-Upon
                                               Procedures: Employee
                                               Benefits, Withholdings,
                                               Contribution and
                  11401-0001-11    09/23/11
                                               Supplemental Semiannual
Office of the                                  Headcount Reporting
Chief Financial                                Submitted to the Office of
                                               Personnel Management
Officer: 2
                                               Statement on Standards for
                                               Attestation Engagements
                  11401-0002-11    09/23/11    No. 16, Report on
                                               Controls at National
                                               Finance Center




36    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                                      Impact of the OIG




                            AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                          FROM APRIL 1, 2011-SEPTEMBER 30, 2011
                                                                                                 QUESTIONED          UNSUPPORTED      FUNDS TO BE
     AUDIT TOTALS                              RELEASE
                        AUDIT NUMBER                                      TITLE                   COSTS AND           COSTS AND      PUT TO BETTER
      BY AGENCY                                 DATE
                                                                                                    LOANS               LOANSa            USE
                                                            Statement on Standards for
    Office of                                               Attestation Engagements
    the Chief                                               No. 16, Report on
                      88501-0001-11           09/19/11
    Information                                             Controls at National
    Officer: 1                                              Information Technology
                                                            Center
    Risk                                                    Citrus Indemnity
    Management        05099-0029-At           09/07/11      Payments Resulting From                $44,059,385
    Agency: 1                                               2005 Florida Hurricanes

    Rural                                                   Rural Cooperative
    Business-                                               Development Grant
                      34004-0001-KC           08/25/11      Program Eligibility and                     $65,056                          $194,735
    Cooperative                                             Grant Funds Use for a
    Service: 1                                              Missouri Entity
                                                            Rural Rental Housing
                      04601-0020-Ch           05/19/11      Management Company                        $152,970
                                                            Located in Indiana
                                                            Controls Over Eligibility
                                                            Determinations for
                      04703-0002-Ch           09/30/11      Single Family Housing     $4,160,000,000
    Rural Housing                                           Guaranteed Loan Recovery
    Service: 3                                              Act Funds (Phase 2)
                                                            FAST REPORT: Single
                                                            Family Housing Direct
                      04703-0003-                           Loans Recovery Act
                                              08/19/11                                           $173,000,000
                      KC(1)                                 Controls – Compliance
                                                            Review of Borrowers’
                                                            Eligibility Determinations
                                                            FAST REPORT: RUS
    Rural Utilities                                         Needs to Improve Project
                      09703-0001-
                                              08/31/11      Transparency for the Water                                                          **
    Service: 1        At(2)
                                                            and Waste Disposal System
                                                            Recovery Act Projects
                      Grand Total                                                               $4,413,722,453         $28,457,475      $5,582,302
a
 Unsupported values are included in questioned values.
**Errata: A dollar value was erroneously reflected in a prior version.
NOTE: Upon final report issuance, fast report monetary values will be reflected in the inventory of Audit Reports.




                                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half          37
                                                            Impact of the OIG




                                           AUDITS WITHOUT MANAGEMENT DECISION
 In total, OIG has 13 audits without management decision. Their details are provided in the tables below:

                                               NEW FOR THIS REPORTING PERIOD
                                                                                                 Total Value at      Amount With No
   Agency      Date Issued                            Title of Report                             Issuance (in       Mgmt Decision
                                                                                                    dollars)           (in dollars)
 CCC            11/20/10     CCC’s FY 2010 Financial Statements (06401-0025-FM)                               0                     0
                             USDA Payments for 2005 Citrus Canker Tree Losses
                03/23/11                                                                              $633,717             $633,717
 Multi-                      (50099-0046-At)
 agency                      Emergency Disaster Assistance for 2008 Floods: Emergency
                03/31/11                                                                              $620,424             $512,161
                             Conservation Program (50601-0016-KC)
 Total New For This Reporting Period: 3



The audits in the following table are still pending agency action or are under judicial, legal, or investigative proceedings. Details on
the recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies have been
informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been completed.
The appropriate Under and Assistant Secretaries have been notified of those audits without management decisions.

                             AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                                                                                 Total Value at      Amount With No
   Agency      Date Issued                            Title of Report                             Issuance (in       Mgmt Decision
                                                                                                    dollars)           (in dollars)
                              Hurricane Relief Initiatives: Livestock and Feed Indemnity
 FSA            02/02/09                                                                            $1,866,412             $427,278
                              Programs (03601-0023-KC)
                              Implementation of the Agricultural Risk Protection Act
                09/30/03                                                                                       0                    0
                              (50099-0012-KC)
 Multi-                       Effectiveness and Enforcement of Debarment and
                08/16/10                                                                                       0                    0
 agency                       Suspension Regulations in USDA (50601-0014-At)
                              Pasture, Rangeland, and Forage Loss Pilot Program
                08/27/10                                                                            $1,169,645           $1,125,656
                              (50601-0018-Te)
                              Farm and Ranch Lands Protection Program—Nationwide
 NRCS           07/06/09                                                                              $716,563             $716,563
                              Selected Non-Governmental Organization (10099-0006-SF)
                              Rural Business-Cooperative Service—Intermediary
 RBS            06/25/10                                                                            $7,909,538           $7,909,538
                              Relending Program (34601-0006-At)
                              Monitoring of RMA’s Implementation of Manual 14
                03/15/02                                                                                       0                    0
                              Reviews/Quality Control Review System (05099-0014-KC)
                              Crop Loss and Quality Adjustments for Aflatoxin Infected
                09/30/08                                                                           $15,951,016          $15,951,016
 RMA                          Corn (05601-0015-Te)
                              RMA’s 2005 Emergency Hurricane Relief Efforts in Florida
                03/04/09                                                                         $217,256,417         $217,256,417
                              (05099-0028-At)
                09/16/09      RMA Compliance Activities (05601-0011-At)                                        0                    0
 Total Previously Reported But Not Yet Resolved: 10




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                         Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION—                                 that payments were accurately calculated. We found that
NARRATIVE FOR NEW ENTRIES                                           APHIS did not coordinate with RMA to determine the amount
                                                                    of indemnity payments growers may have already received
FY 2010 Commodity Credit Corporation (CCC)                          before APHIS calculated its payments. We recommended
Financial Statements (06401-0025-FM), issued                        that APHIS correct erroneous payments totaling around $1.1
November 12, 2010                                                   million. We have reached management decision on three of the
During the review of the FY 2010 CCC financial statements,          four recommendations. The open recommendation involves
the independent auditors recommended that CCC implement             recovery of overpayments to citrus growers.
compensating controls for control deficiencies at USAID,            Emergency Disaster Assistance for 2008 Floods:
which is a party to allocation transfers with CCC. CCC              Emergency Conservation Program (50601-0016-KC),
initially disagreed with the recommendations but is now             issued March 31, 2011
working with USAID to formulate a corrective action plan to
address the internal control weaknesses. We are working with        We found that FSA needs to take steps to strengthen its
CCC to facilitate further discussion and action for management      control structure for future implementation of the Emergency
decision.                                                           Conservation Program. During the initial onsite inspection of
                                                                    producers’ fields, FSA employees did not always determine the
USDA Payments for 2005 Citrus Canker Tree Losses                    type and extent of the damage the producer sustained.
(50099-0046-At), issued March 23, 2011
                                                                    We have reached management decision on six of the nine
In response to citrus canker identified on commercial groves        recommendations. To achieve management decision on
and residential properties, APHIS and RMA compensated               the three remaining recommendations, the agency needs to
commercial citrus growers for lost production or tree losses        strengthen procedures related to obtaining and evaluating cost
due to removal of infected trees and nearby trees that may          estimates for Emergency Conservation Program applications,
have been exposed. We conducted this review to evaluate the         and the county committees need to review each cost-share
adequacy of coordination and collaboration between APHIS            agreement identified in our audit and take the appropriate
and RMA with regard to citrus canker-related payments and           administrative actions, including recovering any overpayments.
the adequacy of the agencies’ management controls to ensure




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half       39
                                                          Impact of the OIG




INDICTMENTS AND CONVICTIONS                                            court action on an indictment varies widely; therefore, the 200
                                                                       convictions do not necessarily relate to the 363 indictments.
From April 1, 2011 through September 30, 2011, OIG                     Fines, recoveries/collections, restitutions, claims established,
completed 157 investigations. We referred 49 cases to Federal,         cost avoidance, and administrative penalties resulting from our
State, and local prosecutors for their decision.                       investigations totaled about $65.8 million. The following is a
During the reporting period, our investigations led to 363             breakdown, by agency, of indictments and convictions for the
indictments and 200 convictions. The period of time to obtain          reporting period.



                                INDICTMENTS AND CONVICTIONS—April 1, 2011-September 30, 2011
                      Agency                               Indictments                                    Convictions*
                       AMS
                      APHIS                                       55                                             45
                       FNS                                       269                                           114
                         FS                                        5                                             11
                        FSA                                       19                                             16
                       FSIS                                        1                                              1
                      GIPSA
                      NRCS                                         2                                              3
                       OIG
                       RHS                                         5                                              3
                       RMA                                         7                                              7
                       RUS

                       Totals                                    363                                            200
 * This category includes pretrial diversions.




40      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                           Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                   period, the hotline received 1,551 complaints, which included
                                                                      allegations of participant fraud, employee misconduct, and
The OIG hotline serves as a national intake point for reports         mismanagement, as well as opinions about USDA programs.
from both employees and the general public of suspected               The following tables are a summary of the hotline complaints
incidents of fraud, waste, mismanagement, and abuse in                for the second half of FY 2011.
USDA programs and operations. During this reporting



                                         Hotlines Complaints Summary—FY 2011, 2nd Half
 Total No. of Complaints Received                                                                             1,551



   Figure 1. Volume and Type


                                                                                               Participant Fraud (969)




                   Employee Misconduct (172)



                   Reprisal (4)
                   Bribery (0)
                   Opinion/Information (116)


                   Health/Safety Problem (31)                                                Waste Management (259)



   Figure 2. Disposition of Complaints Received

                                                                                                        Referred to USDA Agencies
       Referred to Other Law
                                                                                                               for Response (612)
       Enforcement Agencies (5)

       Referred to OIG Audit or
       Investigations for Review (108)

       Referred to State Agencies (12)

       Filed Without Referral–                                                                   Referred to FNS for Tracking (489)
       Insufficient Information (45)



       Referred to USDA or Other Agencies
       for Information–No Response
       Needed (280)




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half            41
                                                                 Impact of the OIG




                            FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT REQUESTS
                              FOR THE PERIOD APRIL 1, 2011 THROUGH SEPTEMBER 30, 2011
                     Categories                                                           Type                         Number
                                                         FOIA/Privacy Act Requests Received                              58
                                                         Granted                                                         6
FOIA/Privacy Act Requests Received/Processed             Partially Granted                                              10
                                                         Not Granted                                                    42
                                                         Total FOIA/Privacy Act Requests Processed                       58
                                                         No Records Available                                           22
                                                         Referred to Other Agencies                                      1
                                                         Requests Denied in Full Exemption 5                             0
                                                         Requests Denied in Full Exemption 7(A)                          9
                                                         Requests Denied in Full Exemption 7(C)                          0
Reasons for Denial                                       Request Withdrawn                                               0
                                                         Fee-Related                                                     0
                                                         Not a Proper FOIA Request                                       1
                                                         Not an Agency Record                                            0
                                                         Duplicate Request                                               0
                                                         Other                                                           9
Requests for OIG Reports From Congress and               Received                                                        2
Other Government Agencies                                Processed                                                       2
                                                         Appeals Received                                                 4
                                                         Appeals Processed                                                4
                                                               Completely Upheld                                         2
Appeals                                                        Partially Reversed                                        1
                                                               Completely Reversed                                       0
                                                               Requests Withdrawn                                        0
                                                               Other                                                     0
                                                         OIG Reports/Documents Released in Response to Requests           9
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 33 audit reports were posted online on the OIG website: http://www.usda.gov/oig.




42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half
                                                          Impact of the OIG




Abbreviations
Abbreviation Full Name                                                Abbreviation Full Name
AIP          approved insurance provider                              IT           information technology
AMS          Agricultural Marketing Service                           LAPD         Los Angeles Police Department
APHIS        Animal and Plant Health Inspection Service               NASS         National Agricultural Statistics Service
ARS          Agricultural Research Service                            NFC          National Finance Center
BCAP         Biomass Crop Assistance Program                          NIFA         National Institute of Food and Agriculture
CACFP        Child and Adult Care Food Program                        NIST         Institute of Standards and Technology
CCC          Commodity Credit Corporation                             NITC         National Information Technology Center
CEO          Chief Executive Officer                                  NRCS         Natural Resources Conservation Service
CFC          Combined Federal Campaign                                NSLP         National School Lunch Program
CIGIE        Council of Inspectors General on Integrity               OCFO         Office of the Chief Financial Officer
             and Efficiency                                           OCIO         Office of the Chief Information Officer
COOL         country of origin labeling                               OIG          Office of Inspector General
EBT          electronic benefits transfer                             OMB          Office of Management and Budget
FAS          Foreign Agricultural Service                             OPM          Office of Personnel Management
FBI          Federal Bureau of Investigation                          RBS          Rural Business-Cooperative Service
FCIC         Federal Crop Insurance Corporation                       Recovery     American Recovery and Reinvestment Act of
FDA          Food and Drug Administration                             Act          2009
FNS          Food and Nutrition Service                               Recovery     Recovery Accountability and Transparency
FOIA         Freedom of Information Act                               Board        Board

FRPP         Farm and Ranch Lands Protection Program                  RHS          Rural Housing Service

FS           Forest Service                                           RMA          Risk Management Agency

FSA          Farm Service Agency                                      RRH          Rural Rental Housing

FSAN         Financial Statement Audit Network                        RUS          Rural Utilities Service

FSIS         Food Safety and Inspection Service                       SARC         Semiannual Report to Congress

FY           fiscal year                                              SNAP         Supplemental Nutrition Assistance Program

GE           genetically engineered                                   USAID        U.S. Agency for International Development

GIPSA        Grain Inspection, Packers and Stockyards                 USDA         U.S. Department of Agriculture
             Administration                                           USMS         U.S. Marshals Service
IG           Inspector General                                        WIC          Special Supplemental Nutrition Program for
IRS          Internal Revenue Service                                              Women, Infants, and Children




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 2nd Half       43
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (150 TOTAL)
σσ    APHIS agreed with our recommendations to develop a regulatory framework clearly defining its scope of coverage and regulatory
      requirements for genetically engineered animals and plants, and the USDA agencies responsible for research also agreed to strengthen
      their controls at their laboratories.
σσ    RD agreed to develop more detailed underwriting tools, improve guidance, and provide further training so that its field personnel
      could make more accurate eligibility determinations for Single Family Housing Loans.
σσ    AMS agreed to strengthen its oversight of country of origin labeling, including improving its retailer review process, enhancing its
      compliance procedures, and improving how it communicates with retailers.


OIG MISSION
OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These programs encompass
a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.



OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural and
      Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
To learn more about OIG, visit our website at
https://www.usda.gov/oig/index.html

How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, D.C.: (202) 690-1622
Outside D.C.: (800) 424-9121
TDD (Call Collect): (202) 690-1202
(Monday-Friday, 9:00 a.m. – 3:00 p.m. ET)

Bribes or Gratuities:
(202) 720-7257
(888) 620-4185
(24 hours a day)




USDA prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age, disability,
and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information,
political beliefs, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication
of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice
and TDD). To file a discrimination complaint, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
Washington, D.C. 20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity
provider and employer.

November 2011
